<html>
<title> - CUBA'S LINK TO DRUG TRAFFICKING</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





                    CUBA'S LINK TO DRUG TRAFFICKING

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 17, 1999

                               __________

                           Serial No. 106-143

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-464 CC                   WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                 Gil Macklin, Professional Staff Member
                Mason Alinger, Professional Staff Member
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 17, 1999................................     1
Statement of:
    Beers, Rand, Assistant Secretary, International Narcotics and 
      Law Enforcement Affairs, Department of State; William E. 
      Ledwith, Chief of International Operations, Drug 
      Enforcement Agency; and Rear Admiral Edward J. Barrett, 
      Director, Joint Interagency Task Force East................    24
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana.................................................     6
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York......................................    15
Letters, statements, et cetera, submitted for the record by:
    Barrett, Rear Admiral Edward J., Director, Joint Interagency 
      Task Force East, prepared statement of.....................    40
    Beers, Rand, Assistant Secretary, International Narcotics and 
      Law Enforcement Affairs, Department of State, prepared 
      statement of...............................................    28
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana:
        Investigative results....................................    67
        Prepared statement of....................................    12
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York:
        Article dated November 11, 1999..........................    61
        Letter dated November 10, 1999...........................    55
        Prepared statement of....................................    17
    Ledwith, William E., Chief of International Operations, Drug 
      Enforcement Agency, prepared statement of..................    34
    Ose, Hon. Doug, a Representative in Congress from the State 
      of California, articles dated November 1, and June 28, 1999    89

 
                    CUBA'S LINK TO DRUG TRAFFICKING

                              ----------                              


                      WEDNESDAY, NOVEMBER 17, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Gilman, Shays, Ros-
Lehtinen, Ose, Mink, Cummings, Kucinich, Turner, and 
Schakowsky.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Gil Macklin and Mason Alinger, professional staff 
members, Charley Diaz, congressional fellow; Lisa Wandler, 
clerk; John Mackey, investigative counsel, HIRC; Kevin Long, 
professional staff member, HGRC; Cherri Branson, minority 
counsel; and Jean Gosa, minority staff assistant.
    Mr. Mica. Good morning. I would like to call this meeting 
of the Criminal Justice, Drug Policy, and Human Resources 
Subcommittee to order.
    I welcome our members. I will start off this morning with 
an opening statement, and then I will yield to other members. 
We have several panels this morning we will hear from, so we 
want to get started.
    This morning, our subcommittee will conduct an oversight 
and investigative hearing on the subject of Cuba's involvement 
in illegal narcotics trafficking. This past week the United 
States Department of State and the Clinton administration 
determined that Cuba would not be added to the majors list. 
Each November, the majors list which is developed is the first 
step in the annual certification process established by the 
International Narcotics Control Act of 1986, and this list 
determines which countries are involved both in producing and 
transiting of illegal narcotics.
    This decision was made despite the United States Drug 
Czar's statement that drug overflights of Cuba increased by 
almost 50 percent last year. I think we have a copy of his 
statement. It says the intelligence and law enforcement 
communities report detected drug overflights of Cuba increased 
by almost 50 percent. That is a letter sent to Chairman Burton 
on May 27th.
    In addition, last year 7.2 metric tons of cocaine seized by 
the Colombian National Police in Cartagena were shown to be 
bound for Cuba with the final destination possibly being the 
United States. Also, according to the State Department's own 
1999 International Narcotics Control Strategy Report, there are 
indications in that report, and let me quote from it, that 
``drug trafficking, particularly transshipment via mules 
transiting Cuban airports and drugs dropped from planes over 
waters off of Cuba's northeast coast is on the rise,'' and that 
is also from the State Department's report.
    Today, our subcommittee will hear from a variety of 
witnesses, including the chairman of our full committee, Mr. 
Burton, and Mr. Gilman, a member of our subcommittee who also 
chairs the House International Relations Committee. Both 
chairmen have carefully reviewed Cuba's role in international 
narcotics trafficking. They have also had their key staffers do 
extensive work in reviewing what is going on with illegal 
narcotics trafficking from and to Cuba.
    Additionally, we will hear from administration officials 
involved in assessing Cuba's illegal drug activities and from 
several other witnesses knowledgeable about alleged Cuban 
narcotics and criminal connections.
    Last year, more than 15,700 Americans, most of them young, 
died from drug-induced deaths. Few wars have so devastated our 
population as the toll we now see taken by illegal narcotics.
    Any country and its officials involved either directly or 
indirectly in dealing with this poison must be and will be held 
accountable. Both our Federal law and simple justice require no 
less of an action on our part.
    I have personally flown above the Caribbean waters in 
United States surveillance aircraft and witnessed how drug 
traffickers use Cuban waters as a refuge in a deadly cat and 
mouse game.
    I will be interested to learn today from this hearing if 
Cuban officials support these criminal ventures. We have a 
number of questions that must be answered. Does Castro and his 
regime turn their backs or partner with drug traffickers as 
huge quantities of deadly drugs transit to our shores? As 
heroin and cocaine pour out of Colombia we know traffickers use 
island nations such as Cuba, Haiti, Jamaica and others as 
steppingstones to reach the streets of our American 
communities.
    Several months ago, Fidel Castro called for American 
assistance and cooperation to stem the Caribbean drug trade. 
Today's hearing should help us determine whether Cuba and its 
leaders are a friend or foe in a battlefield that stretches 
across the Western hemisphere.
    Finally, in addition to Cuba, I am very deeply troubled by 
reports of drug transiting and official corruption in Haiti and 
among Haitian officials who may be dealing with illegal 
narcotics trafficking. This is particularly troubling after the 
United States has spent billions of taxpayer dollars in a 
nation building and judicial institution reform effort in that 
country.
    It is bad enough to have our adversaries demean us, let 
alone have those who we have taken under our wings now betray 
us.
    We have a very serious Federal obligation to stop illegal 
narcotics, both at their source and to interdict those drugs 
prior to the drugs reaching our shores.
    With thousands of our American citizens dead, in prisons or 
with their lives and families destroyed, we must pursue each 
and every one of the violators and bring this mounting problem 
under control.
    This hearing can hopefully help us achieve that goal and 
help us obtain answers to very serious and troubling questions 
concerning Cuba's role in international narcotics trafficking.
    With those comments, I am pleased to recognize the 
gentlelady from Hawaii, our ranking member, Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman. I want to join you in 
welcoming our distinguished panelists and look forward to their 
comments on this issue.
    I think it is important from our perspective on the 
minority side to be perfectly clear on what exactly we are 
examining today. We need to be clear about what the majors list 
is and is not. The majors list is the annual list of major drug 
producing or drug trafficking countries which is used as the 
basis of certification. The majors list is a compilation of 
countries which have been responsible for the presence of 
illicit narcotics on American streets through either major drug 
producing or drug transit activities.
    The majors list is not a way to express official approval 
or disapproval of a country, its policies or practices. 
Exclusion from the majors list does not mean that the country 
does not raise some concerns nor does exclusion mean the United 
States can or should abdicate its role of monitoring drug 
activity in, around and through that country.
    Inclusion on the majors list is a statement that the 
available information indicates that a country has met the 
statutory definition regarding the amount of drugs that are 
grown, harvested or transported through a country and are 
headed for the United States. If a country meets the statutory 
criteria, it must be placed on the majors list. The State 
Department, Drug Enforcement Agency, and the Office of National 
Drug Control Policy, the agencies that advise the President on 
the composition of the majors list, have all determined that 
Cuba does not meet the statutory criteria.
    Even if Cuba did meet the statutory requirement, what could 
the United States do? Countries that are placed on the majors 
list are denied 50 percent of their current U.S. assistance, 
except humanitarian or counternarcotics aid, until a 
certification decision is made. Because Cuba does not receive 
any U.S. assistance, a majors list designation could have no 
practical effect.
    I am very much interested in what the witnesses and the 
panels will be contributing to our understanding of this issue, 
and I would hope that at the end of these hearings we will have 
a better understanding of the administration's decision and the 
basis upon which it was made.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady.
    Now, I would like to recognize the gentlelady from Florida, 
Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and 
thank you for the witnesses and panelists who will be appearing 
before us.
    Today, I assume that we will be hearing from Clinton 
administration witnesses--I have read some of their 
statements--who will state that there is no evidence that 
Castro is involved with drug trafficking, that he has made 
strong statements against drugs and that he fights corruption. 
And because this administration has a political agenda which is 
to establish and normalize relations with Castro and also to 
undermine our U.S. embargo, in order to do this, we have got to 
say that up is down and down is up.
    Cuba is a totalitarian police state, we all know that, and 
do we really honestly think that someone could be involved with 
drugs in Cuba and Castro not know this is going on? He not only 
knows, but is part of this illegal operation. He allows the 
fast boats of the drug traffickers to go into Cuban waters, and 
these boats go into Cuban waters to avoid and evade our United 
States agents who are fighting a strong battle against drugs. 
There has been continuous video footage, as shot by Miami 
television stations, showing these fast boats going into Cuba 
waters.
    The only time that Castro brings up drug charges against 
other officials in Cuba is when the dictator is not given his 
share of the cut, or when a military official becomes too 
popular. Then some trumped-up drug charges will be brought up 
against those officials.
    Castro is clearly part of the problem. He is not the 
solution. But, after all, this administration sent United 
States Chamber of Commerce officials to Cuba to talk to those 
hordes of nonexistent small businessmen in Cuba, to talk to the 
Cuban Chamber of Commerce, as if there is such a thing, as if 
there are small businesses in Cuba and a Cuban Chamber of 
Commerce. And if you are naive enough to believe that, then I 
guess you could believe that Castro is not involved in drug 
trafficking. It fits the pattern very well.
    And Castro, by the way, also says that he has no political 
prisoners. Castro says he is not a dictator. And, of course, 
the jails are full of political opposition leaders, and it is 
actually illegal in Cuba to have any other political party 
except the Communist party to operate in Cuba. There is no 
freedom of expression, and I suppose that we should believe 
Castro when he says that all is well in Cuba as well.
    As we know, there is a Federal indictment, a draft 
indictment since 1993 that implicated and could have indicted 
Raul Castro in cocaine smuggling, and nothing has been done 
about that evidence since that time. The transit of drugs in 
Cuban airspace and in waters is well known. As we know, Castro 
shot down small planes of Brothers to the Rescue and killed 
three innocent U.S. citizens and one U.S. resident who were in 
international airspace on a humanitarian mission. Yet we are to 
believe that Castro's air force is unable to control their 
airspace when it comes to drug trafficking. That is ridiculous.
    Castro certainly had no resource problem when it comes to 
murdering U.S. citizens on a humanitarian mission. Yet we are 
to believe that he is unable to stop drug trafficking in his 
airspace now.
    Now, we have even more evidence of Castro's complicity with 
the drug trade, tons and tons of pure cocaine headed to Cuba. 
Oh, but Castro did not know--I forgot--he does not know what is 
going on in Cuba. He wants to cooperate with the United States 
on drug trade.
    And this is not just naive. It is dangerous. It endangers 
our young people for us to believe that Castro is a willing 
partner in stamping out drugs. In treating Castro as a 
cooperative agent, this could mean that the United States will 
look the other way when faced with even more clear evidence of 
Castro's involvement in trafficking, which would mean then more 
drugs coming to the United States. It is not naive. It is 
dangerous for us to assume this position.
    Will we actually be sharing information with Castro? The 
answer today is no. But tomorrow, when we are willing to look 
the other way and say that up is down and down is up, I fear 
the worst. And this tyrant who tells us that all is well in 
Cuba, who will sign any document saying that he is for freedom 
and human rights and democracy and yet will accomplish nothing, 
he has never lived up to any international agreement he has 
signed with any country. Why would we think that he is now 
going to be a willing partner in fighting drug trafficking in 
the United States? Do we not have enough drugs in our country 
that we really need to say that Castro is going to be our 
partner? I think it is ludicrous, it is a shame, and it is 
dangerous.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady, and I now will recognize 
the gentlelady from Illinois, Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Just briefly, let me say that this is a narrowly crafted 
hearing, I hope, that deals with the possible role in illegal 
narcotics trafficking, and the involvement of Cuba. Not a 
general hearing about Cuba and its politics, and its 
relationship to the United States. I trust that the information 
that we will be hearing will not be relying simply on 
statements by the Cuban Government, but will be a reflection of 
investigations on the part of our intelligence operations, and 
we should evaluate them based on our confidence in the kinds of 
work that they are able to do and in the reports now from our 
distinguished colleagues who will be making presentations.
    So I look forward to all of the testimony. Thank you.
    Mr. Mica. Gentleman from California, Mr. Ose. No statement.
    Gentleman from Texas, Mr. Turner. No statement.
    Gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you for holding this hearing.
    In July of this year, a member of my staff traveled to 
visit the Coast Guard's Seventh District which covers southern 
Florida and the Caribbean, and she had an opportunity to 
interact with members of the Coast Guard Cutter Cushing. The 
members of the Coast Guard are our first line of defense 
against the inflow of drugs via the Caribbean. These men and 
women are hardworking, underpaid, and an indispensable 
component of our counternarcotics efforts.
    Upon my staff member's return, one of the issues she 
expressed to me was the frustration members of the Coast Guard 
had when chasing drug traffickers. The traffickers will ``cross 
the line'' from international waters into Cuban territory 
because they know that the U.S. Coast Guard can't get them.
    Mr. Chairman, the flow of illegal drugs through the 
Caribbean region cannot be stopped without cooperation from the 
Government of Cuba. Currently, there is no bilateral agreement 
between the United States and Cuba. Although our two countries 
continue to exchange drug-related law enforcement information 
on a case-by-case basis, I strongly believe that increasing our 
cooperation will assist in our fight against illegal drug 
trafficking.
    As such, I am a cosponsor of H.R. 2365, sponsored by 
Representative Charlie Rangel of New York, which authorizes the 
Director of the Office of National Drug Control Policy to enter 
into negotiations with representatives of the Government of 
Cuba to provide for increased cooperation between Cuba and the 
United States on drug interdiction efforts. The Government of 
Cuba is a party to the 1988 U.N. convention against illicit 
traffic in narcotic drugs and psychotropic substances. It has 
expressed its desire to expand cooperation with the United 
States on drug interdiction efforts. At the very least, we 
should discuss this issue.
    Representatives Ben Gilman and Dan Burton have introduced 
H.R. 2422, which provides for the determination that Cuba is a 
major drug transit country and would subject the country to 
annual certification procedures. On November 10, 1999, the 
President issued a memorandum that included the list of major 
drug producing or transit countries. Cuba was not on the list. 
The memo stated that the United States will continue to keep 
trafficking in the area under close observation and will add 
Cuba to the majors list if the evidence warrants it. I 
emphasize--if the evidence warrants.
    At this time, according to the State Department and the 
President, evidence does not warrant such a determination. At a 
news conference on November 4th, General McCaffrey, who we all 
respect greatly, stated that there was little reason to believe 
that the Cuban Government was complicit in allowing Colombian 
cocaine and heroin to move to the United States through Cuban 
territory, airspace or seas. Moreover, including Cuba on the 
majors list would have no practical significance since Cuba 
neither receives United States aid nor has any bilateral 
agreement with the United States.
    Again, I strongly believe that we should increase our 
cooperation with Cuba on drug interdiction. However, I will 
give full consideration to all testimony provided today.
    Thank you very much, Mr. Chairman.
    Mr. Mica. I thank the gentleman.
    We are going to go ahead and proceed with our first panel 
at this time. Our first panel consists of two individuals well-
known to the committee and the Congress, Chairman Ben Gilman, 
who is chairman of the House International Relations Committee, 
and Chairman Dan Burton. Of course, Mr. Burton is the chairman 
of our full House Government Reform Committee.
    I see Mr. Kevin Long, who is also one of our professional 
staffers, who has worked with the chairman and with our 
subcommittee on this issue. And also I see behind Mr. Gilman 
Mr. John Mackey, who has spent a credible amount of time, a 
number of years, reviewing drug policy and drug trafficking.
    So I welcome the two distinguished chairs and staff.
    What we will do at this time, if we may, is recognize 
Chairman Burton, chairman of our full committee, first.

STATEMENT OF HON. DAN BURTON, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF INDIANA

    Mr. Burton. Thank you very much, Chairman Mica; and I want 
to congratulate you and your committee for holding this hearing 
on Fidel Castro's what I believe to be long-standing 
participation in international drug trafficking.
    Unfortunately for the American people, President Clinton 
has chosen to ignore the facts and proceed down the trail of 
normalization with the murderous drug-running Castro 
dictatorship. Just last week, President Clinton refused to put 
Cuba on the majors list of drug transiting countries that 
substantially impact the United States. This is a decision that 
is clearly rooted, in my opinion, in politics rather than 
determined by the facts.
    The stained foreign policy legacy of this administration 
has never been more evident. Clearly, the Clinton 
administration has turned its back to American children in 
order to normalize relations with a brutal dictator who is 
flooding American streets and schoolyards with deadly drugs, 
all the while lining his pockets and his administration in Cuba 
with illicit drug money. The Clinton legacy will be an entire 
generation of Americans subjected to dramatically increased 
drug use, as well as record numbers of drug addicts and 
overdose deaths.
    This has already happened in places like Baltimore where 1 
in 17 citizens is addicted to heroin according to the DEA, 1 
out of 17. In August our Government Reform colleague, Mr. 
Cummings, who just left--I wish he was still here--told us of 
the devastating impact this had on his district in Baltimore. 
Other places like Chairman Mica's District in Orlando where 
over 50 people have died of heroin overdoses this year, and 
many of them teenagers, have suffered needlessly while the 
administration has been asleep at the switch.
    All one needs is common sense to see that Fidel Castro's 
regime has resorted to drug trafficking to fund his sagging 
economy. It is clear to those who have followed Cuba as closely 
as I have that his brutal dictatorship is in dire straits since 
the collapse of the Soviet Union and the subsidies that it 
provided to Cuba. Further, the Helms-Burton embargo has 
Castro's dictatorship strapped for hard currency. And this begs 
the question, where has Castro turned to subsidize this loss of 
money? In my opinion, he has turned to drug trafficking and 
quite possibly money laundering to prop up his Communist 
regime.
    There is an abundance of evidence that Castro's regime is 
involved in drug trafficking. My staff has conducted nearly a 
yearlong investigation into one particular shipment of drugs 
seized by the Colombian National Police last December. This 
investigation has shown the Cuban Government was the primary 
principal behind this shipment of drugs, destined for Havana 
before it was seized. We believe this shipment may have been 
heading for the United States through Mexico after it got to 
Cuba. And some of my colleagues have asked, are they a major 
drug transiting country? This 7.2 ton shipment worth $1,500 
million belonging to the Cuban Government was seized in six 
containers and was to be transported to Cuba by a Cuban 
Government-owned shipping company and was to be opened only in 
the presence of Cuban Government Customs agents.
    Fidel Castro has alleged that two Spanish businessmen who 
were minority partners in the joint venture were responsible 
for this shipment. Castro also said that since these two were 
from Spain, the shipment must have been going to Spain.
    A perfect setup by a notorious lying dictator. In reality, 
the Cuban--and I hope my colleagues understand--in reality, the 
Cuban Ministry of Interior, which is the equivalent of our CIA, 
the Cuban intelligence service, assigned two agents to run this 
company under the Cuban Ministry of Light Industry. It was an 
operation that proceeded only under the strict control of the 
Ministry of the Interior, including the order of materials in 
this particular shipment. The two Interior agents were very 
upset that this shipment was twice delayed in Colombia, and 
they even phoned one of the Spanish businessmen to ask when it 
would be delivered. After the seizure in Colombia, when the 
Cuban authorities could have detained the other Spaniard, they 
sent him back to Spain with a gift for his sick wife without 
detaining or questioning him about the seizure.
    Surprisingly, our government has taken Castro's word on the 
destination of this shipment without question. And the White 
House just the other day once again said it was destined to 
Spain, and we hope to refute that in our statement here. This 
is the uncorroborated evidence the DEA will speak of here 
today. The bottom line is the White House chose to take 
Castro's story without a shred of evidence and base their 
assumptions and Cuba's exclusion from the majors list on 
Castro's word, on a Communist dictator's word and nothing else.
    In a letter to Chairman Gilman and myself, the State 
Department spoke for the DEA saying this shipment was headed 
for Spain, and we have a copy of the letter up there. The DEA 
had not cleared that letter, and in a letter the DEA sent back 
to State, they said there was no corroborated evidence that 
this shipment was headed for Spain. And I had the head of the 
DEA and others from the DEA in my office and we grilled them 
very thoroughly about whether or not this shipment was headed 
for Spain, and they said there was no indication whatsoever 
that it was headed for Spain and that the officer who had made 
some comments to State Department was misquoted. And we have 
gone into that in some detail.
    There is also the letter from the DEA to the State 
Department pointing out thoroughly that there was no indication 
that this shipment was headed to Spain. The DEA then confirmed 
to me that it was investigating whether or not there was a 
Mexican connection, and we have that letter up there as well.
    We all know DEA statistics show that 60 percent of all hard 
drugs in the United States enter through Mexico. Today, the DEA 
will reconfirm it has no evidence this shipment was destined 
for Spain despite President Clinton's assertion to the contrary 
in a November letter to Chairman Gilman, and just last week one 
of his assistant press secretaries made the same statement, 
which is totally false.
    My investigators interviewed one of the accused 
businessmen, a Mr. Jose Herrera in Spain, just recently. I sent 
two of my investigators over there. They found him informative 
and even willing to submit to a polygraph test to be 
administered by the Drug Enforcement Agency. Before the 
interview, the DEA said they were unable to get in contact with 
Mr. Herrera but wanted to interview him and polygraph him. And 
my question to the DEA is, if my staff could find him and 
interview him, why in the world had the DEA not already done 
it? And I hope that some of my colleagues--and if you don't ask 
them, I will when we come to the questioning--said they 
couldn't find this guy and they couldn't question him, and 
couldn't polygraph him. He told our investigators he would be 
polygraphed by the DEA and he would be willing to swear under 
oath that he had nothing to do with the drugs going into Cuba 
and that it was all done by the Cuban Government and Castro 
himself.
    Since the interview, the DEA has not polygraphed Mr. 
Herrera and has not even made contact with him. Why? Is it 
because the Clinton administration is afraid this man is 
telling the truth and Fidel Castro is involved with drug 
trafficking? This interview produced hundreds of potential 
leads for the DEA to followup on, and yet they haven't even 
talked to him. My staff has received assurances from the DEA 
that they are in fact doing that, and I hope Mr. Ledwith will 
confirm this is the case when he answers my questions later on, 
along with other members of the committee.
    This is not the only case that can be made that the Castro 
regime is neck deep in drug trafficking. It has been reported 
that since the early 1990's the U.S. attorney in Miami has had, 
as my colleague Ms. Ros-Lehtinen has said, a draft indictment 
for drug trafficking ready to go against Raul Castro, Fidel's 
brother, who is very high in the administration down there.
    Under pressure from Janet Reno and the Department of 
Justice in Washington, the indictment has been put on the shelf 
since its drafting. This Justice Department has chosen not to 
pursue it. Once again, we ask why? Is it because the Clinton 
administration is so tilted toward normalizing relations with 
Cuba that it does not want to deal with the allegation of drug 
trafficking by Castro's Cuba? Unfortunately, this seems like 
the logical conclusion.
    Mr. Chairman, if you will indulge me for a minute, I would 
like to show a DEA surveillance video to all my colleagues, 
which shows a drug trafficker bragging about faking an 
emergency landing in Cuba to drop off a load of dope, then 
getting the royal treatment from the Cuban Government. He was 
even given a false repair document for his plane, which 
permitted him to enter the United States after he left Cuba. 
Now, get that, he landed in Cuba saying he had plane trouble, 
he dropped off a load of narcotics, he was treated royally, and 
given false documents saying that the plane was repaired 
because there were plane troubles, and then he flew to the 
United States with impunity. This is a fact. Listen to what the 
man has to say.
    [Video played.]
    Mr. Burton. I know that the sound quality was very bad, but 
for the members who may have any doubts, we will be happy to 
have you to listen to that more closely in a confined area so 
that you can hear the words very clearly. But the fact is, the 
man landed in Cuba, dropped off the drugs, said he had plane 
trouble, they gave him phony documents saying the plane was 
repaired, and he flew on to the United States.
    I was provided with this tape only after threatening the 
DEA with a subpoena. They wouldn't give it to us voluntarily. 
And, once again, I want the DEA to explain why they are so 
reluctant to let the Congress of the United States know about 
things like this, but they did give it to us after we 
threatened them with a subpoena.
    Well, that seems pretty convincing to me but not to the 
Clinton administration, which has repeatedly claimed there is 
no evidence of Cuban Government involvement in drug 
trafficking. My good friend Bob Menendez, a New Jersey 
Democrat, has said, ``in a country where every human rights 
activist, political dissident, and journalist is followed, that 
narcotic traffickers can meet without the Cuban Secret Police 
knowing is a tale from Alice in Wonderland,'' and I agree with 
him.
    Castro knows, through his block captain system and his 
secret police, everything that is going on in Cuba. If somebody 
complains about politics in Cuba, someone in the block knows 
about it, and those people become political prisoners and go to 
jail. So it's inconceivable that drugs can be coming in and out 
of Cuba with him knowing about it or being involved. It is 
impossible to believe anyone could move that much cocaine 
through Cuba without his knowledge or at least his willingness 
to turn a blind eye to the movement in exchange for some of the 
profit.
    The Clinton administration has argued that Cuba does not 
have the capacity to respond to drug plane overflights or boats 
entering its territorial waters. That claim is absolutely 
hollow and ridiculous. Castro has shown his ability to lethally 
respond to innocent civilians in the past. As Congresswoman 
Ros-Lehtinen has mentioned, Castro scrambled his MiGs in 1996 
to shoot down two unarmed civilian planes in international 
airspace. American fighter planes were left on the ground and 
their engines were shut down while Americans were being 
murdered by Castro's warplanes, and that put the administration 
in a very uncomfortable position. The President ultimately was 
forced to sign the Helms-Burton embargo as a response, which he 
did not want to do. He had told me personally, and told others, 
that he was going to veto it a number of times. It wasn't until 
those innocent Americans were shut down that he felt the 
political pressure and did sign the bill.
    Castro has also sent his navy to murder nearly 100 innocent 
women and children in one incident when it rammed the 13th of 
March tugboat and then used fire hoses to flood the deck and 
sink the boat and drown those women and kids. These were 
innocent refugees merely fleeing the oppression of his brutal 
dictatorship. So if he can find those women and kids on a boat, 
don't tell me he can't find drugs coming in and out of his 
territorial waters. He knows everything that is going on down 
there.
    What this shows is that Castro has the capacity to respond 
to boats and planes if he so chooses. Apparently, Castro feels 
more threatened by innocent women and children telling the 
world the truth about his dictatorship than he does by allowing 
drug traffickers to use Cuba as a syringe for injecting drugs 
into American streets and schoolyards.
    My good friend Senator Robert Torricelli, chairman of the 
Democrat Senatorial Committee, recently said, ``the regular use 
of Cuban airspace and the tracking of drugs through Cuba make 
it clear Cuba belongs on the majors list. Any decision not to 
place Cuba on the list would be for purely political reasons.''
    This is one of the Democrat leaders in the U.S. Senate.
    I also agree, it is purely political. The Clinton 
administration is now in the ironic position of defending Fidel 
Castro's illicit activities. What the Clinton administration 
does not realize or chooses to ignore is that by not placing 
Cuba on the majors list it has, in effect, become an accomplice 
to Castro's activities. President Clinton is now complicit with 
every ounce of cocaine which goes through Cuba and ends up on 
the streets of Chicago, Indianapolis, Baltimore and New York.
    President Clinton's decision will impact an entire 
generation of American children. Even worse is that President 
Clinton made this decision based on his desire to normalize 
relations with Fidel Castro, shameless even to many of his 
fellow Democrats, like Senator Torricelli and Representative 
Menendez. The Clinton administration needs to be held 
accountable for this inaction.
    And I would like to end by saying what some people have 
said, why should they be put on the majors list because we 
can't really do anything to them? The reason they need to be 
put on the majors list is because they are working with 
Colombia. The FARC guerrillas down there are in league with 
Castro. The Marxist FARC guerrillas down there who are working 
with the drug cartel and bringing billions of dollars worth of 
drugs in this country through many avenues, are working with 
Fidel Castro, and so there is a cabal down there involving 
Fidel Castro and the FARC guerrillas and others.
    And one of the things that really concerns me and should 
concern every Member of Congress and every American is that 
General McCaffrey has said that there is a major problem in 
Colombia right now that works with Castro. And the 
administration was supposed to get, according to McCaffrey, $1 
billion in assistance down there to help fight the FARC 
guerrillas and help the Colombia National Police win that war. 
Chairman Gilman and myself and Speaker Hastert had to fight for 
2 years to get three Blackhawk helicopters and three Hueys down 
there, and McCaffrey has now seen the light. The President of 
Colombia has said that they need $3 billion to fight this drug 
war, and the administration has put absolutely nothing, zero, 
in their budget to deal with this.
    Now, the reason I bring this up--and I am closing, Mr. 
Chairman--is that they are running those drugs through Cuba. We 
did not put them on the majors list, and we are not doing 
anything about the FARC guerrillas and the drug cartel in 
Colombia that is working in concert with Fidel Castro. So this 
administration is asleep at the switch. I am very sorry about 
that. And at least we have made the American people, through 
this hearing today, a little bit more aware of the situation.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the chairman for his testimony.
    [The prepared statement of Hon. Dan Burton follows:]
    [GRAPHIC] [TIFF OMITTED] T6464A.001
    
    [GRAPHIC] [TIFF OMITTED] T6464A.002
    
    [GRAPHIC] [TIFF OMITTED] T6464A.003
    
    Mr. Mica. Mr. Gilman, we do have a vote on, but I think you 
have about 8 minutes.
    Mr. Gilman. I will try to be brief.
    Mr. Mica. We will have another bell warning but you are 
recognized.

   STATEMENT OF HON. BENJAMIN A. GILMAN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Gilman. Thank you, Mr. Chairman, and I want to thank 
our committee for coming together on this important issue. I am 
pleased to appear with my colleague, Chairman Dan Burton, to 
address this important issue of Cuba's links to the illicit 
narcotics trade; and I want to thank your committee, Mr. Mica, 
for your continued diligent attention to our Nation's drug 
policy; and I thank our committee staff for their dedicated 
efforts in fighting drug trafficking.
    Last week brought to an end an extraordinary series of 
events on this important issue. It is a subject which should be 
of major concern to our entire Nation. All of our communities 
have been ravaged by illicit drugs transiting here from other 
nations, through places like Cuba.
    On November 10, 1999, the President notified me by letter, 
as chairman of our International Relations Committee, of his 
annual determinations on the major drug source and major 
transit nation list, as required by law. The President, in 
failing to include Cuba on this majors list, stated, while 
there have been some reports that trafficking syndicates use 
Cuban land territory for moving drugs, we have yet to receive 
any confirmation that this traffic carries significant 
quantities of cocaine or heroin to the United States, close 
quote.
    The President's list of November 1999 of major transit 
nations included the nearby Caribbean nations of Haiti, of the 
Dominican Republic, and Jamaica. The Bahamas were also included 
on the President's major transiting list.
    The State Department International Narcotics Bureau, which 
has the lead on preparing the recommendations for the majors 
list, was apparently ignored by the President making this 
determination. The long overdue inclusion of Cuba as a major 
drug transit nation, which significantly impacts our own 
Nation, is once again subject to political considerations.
    Incredibly, an official of the State Department tried to 
explain away the President's failure to include Cuba's 
involvement in the 7\1/2\ metric ton cocaine seizure--7\1/2\ 
tons--we used to worry about a few grams or a few pounds--7\1/
2\ tons of cocaine seized in northern Colombia last December by 
stating that since these multi-tons of cocaine never reached 
this island nation and didn't reach it only because it was 
seized in Colombia by the police.
    After weeks of ``lawyer time'' and extraordinary legal 
gymnastics on whether the term ``through'' means drugs over the 
skies and in the territorial waters of Cuba, we are once again 
witnessing a failure of Presidential leadership in the fight 
against illicit drugs.
    Regrettably, our administration has become a cheerleader 
for the Communist dictatorial regime in Havana. It has not been 
objective. It has swallowed the Cuban Government's spin, hook, 
line and sinker on illicit drugs. It has long been our 
understanding that the DEA had no evidence to support the 
conclusion that Spain was the ultimate destination of this 7\1/
2\ ton drug shipment in question.
    What is amazing about this Spain destination idea is that 
it is the same propaganda and misinformation that the Castro 
regime in Havana has been promoting since last December. Once 
that shipment of 7\1/2\ tons was determined by Colombian police 
to be headed for Cuba, could we have expected Castro to say it 
was headed for the United States? Obviously never. He is a 
master of disinformation and propaganda, especially when it 
comes to drugs.
    The head of the Spanish National Police informed our 
committee staff 2 weeks ago in Colombia that Cuba is the only 
destination that they have been able to determine for this 
massive shipment of Colombian cocaine, not Spain, as both Mr. 
Castro and Mr. Clinton allege.
    A few things DEA has made clear to our committee, and it 
might be worth noting these factors for the record, concerning 
Cuba's rightful inclusion on the majors list are as follows--
and I will be brief.
    First, the DEA says a massive shipment of 7\1/2\ metric 
tons of cocaine, such as this one in December, does not 
represent the first time Cuba was used to transit large 
quantities of drugs. This route would have been tried and 
tested many times before such a large quantity of drugs were 
able to be passed through Cuba.
    Second, the DEA also makes it clear that any organization 
moving such a large quantity of illicit drugs is targeting both 
the United States and Europe, two of the major cocaine markets 
in the world. A recent DEA case in point involved a major drug 
trafficking organization that was moving large quantities of 
cocaine to Europe, as well as Florida and Texas.
    Until we get a thorough investigation of this 7\1/2\ ton 
cocaine shipment's ultimate destination, and not distortions 
and propaganda from the administration along with Castro's 
government, we should give the benefit of doubt to the 
communities and children of America and include Cuba on the 
majors list.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Benjamin A. Gilman 
follows:]
[GRAPHIC] [TIFF OMITTED] T6464A.004

[GRAPHIC] [TIFF OMITTED] T6464A.005

[GRAPHIC] [TIFF OMITTED] T6464A.006

[GRAPHIC] [TIFF OMITTED] T6464A.007

[GRAPHIC] [TIFF OMITTED] T6464A.008

[GRAPHIC] [TIFF OMITTED] T6464A.009

[GRAPHIC] [TIFF OMITTED] T6464A.010

    Mr. Mica. I thank the Chairs of our two full committees for 
their testimony.
    We do have a vote that is under way right now. Why don't we 
recess the hearing until about 7 minutes after the vote? Then 
we will reconvene. If everybody could come back, we will be 
able to ask questions and proceed with this panel and then the 
second panel.
    So this hearing stands in recess.
    [Recess.]
    Mr. Mica. I would like to call the subcommittee to order.
    We will go ahead and seat our second panel and proceed 
since we do have three witnesses on this panel, and we will 
have an opportunity, I guess, for some exchange between 
members, both Mr. Burton and Mr. Gilman, during our regular 
questioning so we can expedite these proceedings.
    Our second panel today consists of Mr. Rand Beers, who is 
the Assistant Secretary of International Narcotics and Law 
Enforcement Affairs with the Department of State. Another one 
of our witnesses is Mr. William E. Ledwith, the Chief of 
International Operations of the Drug Enforcement Agency. The 
third witness is Admiral Ed Barrett, he is the Director of the 
Joint Interagency Task Force East.
    I would like to welcome all three panelists. I think some 
of you have been with us before, and we do swear in our 
witnesses, other than Members of Congress, and we will do that 
in just a minute. Also, if you have lengthy statements or 
information that you would like to make part of the record, we 
will be glad to do that upon request.
    With those opening comments, if you all would please stand, 
raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. Witnesses answered in the affirmative.
    I would like to welcome back again Mr. Beers, who is the 
Assistant Secretary of International Narcotics and Law 
Enforcement Affairs with the Department of State.
    Welcome, sir, and you are recognized.

 STATEMENTS OF RAND BEERS, ASSISTANT SECRETARY, INTERNATIONAL 
  NARCOTICS AND LAW ENFORCEMENT AFFAIRS, DEPARTMENT OF STATE; 
  WILLIAM E. LEDWITH, CHIEF OF INTERNATIONAL OPERATIONS, DRUG 
    ENFORCEMENT AGENCY; AND REAR ADMIRAL EDWARD J. BARRETT, 
          DIRECTOR, JOINT INTERAGENCY TASK FORCE EAST

    Mr. Beers. Thank you, sir, Mr. Chairman and other members 
of the committee, Chairman Burton, Chairman Gilman. It's a 
pleasure be here. Thank you very much for inviting me to 
testify today on the issue of Cuba's links to drug trafficking. 
I welcome this opportunity to discuss our assessments of Cuba's 
potential as a drug transit country and the administration's 
decision to continue to identify Cuba as a narcotics 
trafficking country of concern.
    I assure you that we have closely scrutinized the situation 
in Cuba over the past year. We reached the decision to keep it 
as a country of concern rather than include it on the majors 
drug transit list of countries that the President sent to 
Congress on November 10 after a careful and exhaustive review 
of all available information. Much of this year's decision is 
based on law enforcement sensitive and intelligence information 
that, for security reasons, I cannot discuss at this open 
hearing.
    Mr. Chairman, along with my colleagues from DEA and JIATF-
East, I would like to address your questions, and I'd be happy 
to take questions after that.
    Cuba has never been on the majors list since Congress 
enacted this legislation in 1987. The international narcotics 
control community, however, has long been concerned about 
Cuba's potential role as a drug transit country, if for no 
other reason than that the potential is high because Cuba's 
geography places it on a direct line between the drug export 
centers in Colombia and many of the importation gateways in the 
southeast United States. The information available to us, 
however, indicates that Cuba has not emerged as a major drug 
transit country where narcotics trafficking would have a 
significant effect on the United States despite our concerns.
    The December 1998 seizure of 7.2 metric tons of cocaine 
from several containers in Cartagena, Colombia, caused us to 
re-examine carefully our assessment of Cuba's potential role in 
the drug trade. Information at that time indicated that the 
containers were to be rerouted through Jamaica to Havana.
    If we knew that such a shipment was ultimately destined for 
the United States, that information would have influenced our 
decision concerning Cuba's role as a transit country.
    The information we acquired about this case, however, has 
not borne this out. While we cannot state with absolute 
certainty where the shipment was ultimately destined, the 
preponderance of information indicates that it was destined for 
Spain. This is the conclusion of an all-source interagency 
assessment we have requested from the intelligence and law 
enforcement communities about all aspects of this case. They 
have not changed this conclusion, even after reviewing the 
deposition of a suspect in this case recently provided by 
congressional staff investigators in Spain. Furthermore, our 
information reveals no high-level Government of Cuba complicity 
in this foiled smuggling operation.
    We have not limited our examination of Cuba's role in the 
drug trade to this one case, however. The State Department has 
requested and received a series of reports about smuggling 
operations in this region. The reporting shows the following.
    We are unaware of significant quantities of drugs 
transiting Cuba's land mass. The drugs that do arrive in Cuba 
appear to be mostly for a growing indigenous and tourist 
market.
    We have tracked a relatively small number of suspect drug-
laden aircraft over Cuba in 1999, a total of nine through 
September. None of them delivered drug shipments directly to 
the United States. Most, we believe, were dropped off--dropping 
off their loads in international waters to be recovered by go-
fast boats. We based this assessment mostly on the airplane 
flight profiles, not because we could always confirm how many--
how large a drug shipment was on board.
    We have detected an even smaller number of drug smuggling 
boats, five go-fasts, using Cuba's territorial waters in 1999. 
All the boats probably originated in Jamaica, and there is no 
information that they intended to be put ashore in Cuba.
    This is a much lower level of activity than we saw in 1998 
when, for instance, some 27 suspect smuggling flights crossed 
Cuba in the same January to September timeframe.
    We are concerned about these operations but do not believe 
that they currently reflect the level and nature of activity 
that warrants putting Cuba on the list of major drug transit 
countries. Most of the incidents are suspected, not confirmed, 
drug operations. Unlike the case in all other transit 
countries, traffickers appear not to be using Cuba proper in 
any way to facilitate the smuggling of drug shipments to the 
United States. Less than 9 tons of cocaine are estimated to 
have entered Cuba's airspace and territorial seas in this 
regard from January through September 1999, 60 percent less of 
the estimated 15 tons that entered Cuba's airspace and 
territorial seas during the same period in 1998. Moreover, the 
1999 estimate is a fraction of what has arrived in every other 
transit corridor during the same period.
    In short, the administration concluded that Cuba did not 
meet the legislative mandated standard for a major drug transit 
country that is defined in section 481 of the Foreign 
Assistance Act.
    Let me turn next to the steps by the Cuban Government to 
assess this threat.
    The Government of Cuba has limited, and we believe 
diminishing, resources to address the overflight and maritime 
smuggling threats. We have seen no evidence that the government 
regularly tries to intercept drug smuggling flights, and we are 
not encouraging or supporting them to do so. That said, we 
believe it is in our interest to work more closely with Cuba in 
maritime interdiction operations, including operations that 
disrupt the retrieval of air-dropped drugs.
    Cuba's principal drug interdiction organization, the Border 
Guard, appears committed to supporting maritime drug 
interdiction efforts when it has enough resources and 
information to operate effectively. For instance, the Coast 
Guard and the Cuban Border Guard have exchanged dozens of 
telexes this year in an attempt to identify suspect smuggling 
operations and make seizures. Such exchanges resulted in at 
least two seizures we are aware of by the Government of Cuba 
earlier this year, the seizure of a 3,300 pound marijuana 
suspect vessel and the arrest of three smugglers in January; 
the seizure of 1,200 pounds of marijuana from a go-fast boat in 
March.
    Our counternarcotics objective is to facilitate drug 
interdiction efforts around Cuba and to prevent the island from 
becoming a major drug transit center to the United States. As 
members of this committee are aware, we are currently exploring 
some modest steps to achieve these goals.
    For instance, we have proposed to the Government of Cuba 
that we upgrade the current telex link between the United 
States Coast Guard District Headquarters in Miami and the Cuban 
Border Guard to a voice link to facilitate more timely 
exchanges of information. We have also proposed adding extra 
frequencies for safety and security purposes over which Coast 
Guard and Cuban Border Guard boats can communicate when 
conducting coincidental counternarcotics and search and rescue 
operations in the region. The Cubans have responded favorably 
to these proposals, and we are currently examining next best 
steps in light of the international and domestic laws that 
govern how exchanged information can be used.
    In every respect, our counternarcotics decisions regarding 
Cuba are intended to comply with domestic and international 
laws and our broad drug objectives in the region.
    Thank you very much.
    [The prepared statement of Mr. Beers follows:]
    [GRAPHIC] [TIFF OMITTED] T6464A.011
    
    [GRAPHIC] [TIFF OMITTED] T6464A.012
    
    [GRAPHIC] [TIFF OMITTED] T6464A.013
    
    Mr. Mica. Thank you. And we will recognize now Mr. William 
E. Ledwith, who is Chief of International Operations with the 
Drug Enforcement Agency. You are welcome and you are 
recognized, sir.
    Mr. Ledwith. Good morning, sir. Chairman Mica, Chairman 
Burton, Chairman Gilman, and members of the subcommittee, thank 
you for the opportunity to appear before you today. And as 
always, thank you for your continued support of drug law 
enforcement.
    The subcommittee today is hearing testimony in Cuba's link 
to drug trafficking. DEA's mission is to protect American 
citizens from drug traffickers by enforcing the drug laws of 
the United States. A major means of accomplishing this mission 
is DEA's ability to target the command and control of the most 
significant international drug trafficking organizations 
operating in the world today. Several of these organizations 
smuggle their poison into the United States through the 
Caribbean. A portion of this smuggling transits Cuban waters or 
airspace by virtue of its geographic proximity between the 
source zone countries and the United States.
    The subcommittee is interested in DEA's knowledge of any 
steps taken by the Cuban Government to counter the drug 
trafficking threat. This is difficult to assess because DEA has 
no office in Cuba and no established liaison with Cuban law 
enforcement authorities. Cuba has counternarcotics agreements 
with several other nations, but no such treaties with the 
United States. Cuba does work occasionally on a case-by-case 
basis with United States law enforcement and interdiction 
agencies.
    As a law enforcement agency, the DEA does not make 
recommendations whether to certify or not to certify countries 
for cooperation in counterdrug efforts. We do, however, 
annually provide to the Attorney General factual summaries and 
our objective assessment of a country's law enforcement 
capability to combat international drug trafficking.
    As to the nature and extent of the drug threat from Cuba, 
Cuba lies in a direct air and maritime path from South America 
to Florida. As Cuba expands its foreign trade relations, its 
territory will become more vulnerable to exploitation by 
international criminals seeking to establish new bases of 
operations for illegal activities, including drug trafficking. 
Understanding these changes in trafficking trends is vital in 
order to take effective measures to stem the flow of drugs.
    While Cuba's performance in interdicting narcotics has been 
mixed, the Cuban Government has recently strengthened 
agreements with several governments, including the United 
Kingdom, Italy, the Bahamas, and France, as well as the United 
Nations International Drug Control Program, the UNDCP. Although 
Cuban authorities, on occasion, have arrested individual drug 
traffickers, historically the Cuban Government was not 
aggressive in responding to incursions by these traffickers 
into their territorial waters and airspace. Cuba has argued 
that it lacks ``naval means,'' and other resources to patrol 
all of its airspace and territorial waters while at the same 
time it does not routinely permit United States interdiction 
assets to enter its territory.
    It is important to understand that much of our information 
regarding drug arrests and seizures by Cuban authorities has 
been gleaned through international media sources as well as 
other law enforcement agencies, which is a result of not having 
a presence of the DEA in Cuba. Therefore, we have no formal 
contacts with Cuban authorities and we cannot independently 
corroborate much of the reporting on alleged Cuban involvement 
in drug trafficking.
    The most recent case related to Cuba is the Colombian 
National Police seizure of some 7.2 metric tons of cocaine in 
Cartagena, Colombia, on December 3, 1998. Allow me to clarify 
for the subcommittee the limited extent of the information 
currently available to the DEA in this case. This seizure is 
part of a very active investigation being aggressively 
conducted by the Colombian National Police, the Spanish 
National Police, and the Drug Enforcement Administration.
    Currently, DEA has no information to suggest that the 
shipment of 7.2 metric tons of cocaine was destined for the 
United States. Limited and as yet uncorroborated information 
indicates that the cocaine was bound for Spain. This 
information includes previous bills of lading for the 
containers, previous movements of the merchant vessel, Cuban 
police examination of containers in Havana that contained false 
walls, and the Cuban authorities' seizure of $107,000 
equivalent in United States and Spanish currency in one of the 
containers.
    At this stage of the investigation, DEA has no evidence 
regarding the final destination of the cocaine-laden containers 
beyond Cuba. Our best assessment of all available information 
currently indicates that Spain was the most likely destination 
for the cocaine shipment after it reached Cuba.
    We are certain that the shipment was intended for Cuba as 
an intermediary stop. At this time, DEA has no evidence 
indicating that high-ranking officials in the Cuban Government 
were complicit in this shipment. The drugs were well enough 
concealed that Cuban officials might not have become aware of 
their presence had the shipment not been seized in Cartagena.
    In conclusion, DEA will continue to evaluate the challenge 
of drug law enforcement posed by the constantly changing 
dynamics of the international drug trade in the Caribbean. A 
striking feature of the trade is the drug trafficker's ability 
and resourcefulness to respond and adapt to law enforcement 
operations. However, DEA continues to develop and implement 
flexible responses to this threat as evidenced by our most 
recent success in Operation Millennium and Columbus.
    Operation Millennium targeted the heads of a major 
Colombian drug trafficking network, resulting in 42 
indictments, 32 arrests, of which 31 defendants are currently 
awaiting extradition from Colombia to the United States in the 
seizure of over 13 metric tons of cocaine. In Operation 
Columbus, law enforcement agencies in 15 Caribbean countries, 
in concert with DEA, combined to disrupt drug trafficking in 
their region, resulting in over 1,200 arrests.
    These operations underscored DEA's ability to coordinate 
sophisticated international drug enforcement operations, 
resulting in the arrests of some of the most powerful narcotics 
traffickers operating in the Colombian or Caribbean Islands 
today. In similar fashion, DEA continues to aggressively pursue 
all investigative leads arising out of bilateral investigations 
in Colombia and Spain regarding the subject seizure of 7.2 
metric tons of cocaine that occurred in Cartagena.
    As always, Mr. Chairman, I appreciate the opportunity to 
appear before you. I appreciate the interest that you and the 
subcommittee have continuously showed in DEA and drug law 
enforcement. I will gladly answer any questions that you may 
have, sir.
    [The prepared statement of Mr. Ledwith follows:]
    [GRAPHIC] [TIFF OMITTED] T6464A.014
    
    [GRAPHIC] [TIFF OMITTED] T6464A.015
    
    [GRAPHIC] [TIFF OMITTED] T6464A.016
    
    [GRAPHIC] [TIFF OMITTED] T6464A.017
    
    Mr. Mica. Thank you. We will hold our questions until we 
have heard from our final witness, Admiral Ed Barrett, Director 
of the Joint Interagency Task Force East.
    You are welcomed and you are recognized, sir.
    Admiral Barrett. Good morning, Mr. Chairman and 
subcommittee members.
    JIATF East was created in 1994 as a result of PDD 14, which 
ordered a review of the Nation's command, control, and 
intelligence centers involved in international counterdrug 
operations. Our organization of approximately 300 people 
includes representatives from all five military services 
including the U.S. Coast Guard, several law enforcement 
agencies such as Customs, DEA, and FBI, and agencies from the 
intel community including CIA, DIA, and NSA.
    We are working hard to internationalize the drug fight and 
also have several foreign liaison officers that work with us in 
Key West from the U.K., the Netherlands, France, Argentina, 
Brazil, Colombia, Ecuador, Peru, and Venezuela. We work 
directly for General Wilhelm, the Commander in Chief of the 
U.S. Southern Command.
    In April 1999, JIATF South from Panama was merged with 
JIATF East in Key West, and we assumed responsibility for 
counterdrug planning and operations for the entire Southern 
Command area of responsibility, which include both the source 
zone and the transit zone. To date, in calendar year 1999, 
JIATF East has directly supported the seizure of over 45 metric 
tons of cocaine and over 3 metric tons of marijuana with a 
street value totaling $681 million.
    I have been asked to comment and provide information on 
trafficking information. If you would look at the posters to 
your right, please, this data is from the Interagency 
Counterdrug Performance Assessment Working Group data base, and 
I am talking here, first of all, about just noncommercial air. 
We have seen a dramatic drop in noncommercial air flights over 
Cuban airspace in the last year. It was a major problem in 1997 
and 1998, as you can see from the statistics.
    Next slide, please.
    This basically shows the historical tracks that we followed 
from 1997 and 1998. There were many tracks over Cuba which 
dropped cocaine north of Cuba right between the 12-mile 
territorial limit in the international waters and then on up 
into the Bahamas.
    Next slide, please.
    This shows the change to 1999 and it is through November 
15th of this year. Basically, I think there were two things 
that happened here. We had excellent end-game success north of 
Cuba, great cooperation between DEA of Operation Bahamas, Turks 
and Caicos (OBAT), the Coast Guard in the Seventh District, and 
Customs in Florida. Working together, we had several seizures 
there north of the Cuban territorial waters. The second issue 
is that the drug traffickers will take the course of least 
resistance, and that is currently Haiti.
    Next slide, please.
    I will shift now to noncommercial maritime----
    Mr. Mica. Could you go back just a second? I want to make 
sure that everyone sees that. Could the gentleman point out 
just for the benefit of our panel, the subcommittee, Cuba. And 
then you just testified that the bulk of these flights are 
detected through Haiti; is that correct?
    Admiral Barrett. That's correct, sir.
    Sir, the flights are going to Haiti, dropping drugs in 
Haiti or landing in Haiti, and then returning to South America.
    Mr. Mica. Thank you.
    Admiral Barrett. I want to talk now about noncommercial 
maritime, or go-fasts. We saw a marked increase in go-fast 
tracks in 1999, particularly originating in the Jamaica area 
and going up through the Windward Passage to the Bahamas.
    Next slide, please.
    I did not have the information for 1997, but this gives you 
an idea of where we had go-fast detections in 1998. There were 
a few along the southern coast of Cuba and one along the 
northern coast.
    Next slide, please.
    Basically, after we analyzed the increase in go-fast tracks 
in the Windward, the majority of those were marijuana shipments 
from Jamaica up into the Bahamas. About 80 percent of the total 
go-fast tracks were actually marijuana. We had seizures of two 
cocaine go-fasts in the Windward, and, as was previously 
mentioned, there were two marijuana seizures that we are aware 
of from the Cuban Border Guards, and there were several loads 
of marijuana that were dumped because of law enforcement assets 
in the Windward.
    In summary, at JIATF East we have seen little indication 
that cocaine traffickers are using Cuba as a transshipment 
point. What we have seen is noncommercial air and maritime 
suspect tracks flying over Cuba or skirting the territorial 
waters en route to the Bahamas and the southeast United States.
    That concludes my statement, sir. Thank you.
    [The prepared statement of Admiral Barrett follows:]
    [GRAPHIC] [TIFF OMITTED] T6464A.018
    
    [GRAPHIC] [TIFF OMITTED] T6464A.019
    
    [GRAPHIC] [TIFF OMITTED] T6464A.020
    
    [GRAPHIC] [TIFF OMITTED] T6464A.021
    
    [GRAPHIC] [TIFF OMITTED] T6464A.022
    
    [GRAPHIC] [TIFF OMITTED] T6464A.023
    
    [GRAPHIC] [TIFF OMITTED] T6464A.024
    
    [GRAPHIC] [TIFF OMITTED] T6464A.025
    
    [GRAPHIC] [TIFF OMITTED] T6464A.026
    
    Mr. Mica. Thank you.
    Admiral, you just testified that you seized a total of 45 
metric tons of cocaine. Is that in fiscal year 1999 or is that 
a full year?
    Admiral Barrett. Calendar year 1999, sir.
    Mr. Mica. So far?
    Admiral Barrett. Yes, sir, that's correct.
    Mr. Mica. So the shipment which was seized in Cartagena, 
bound for Cuba, would be about 20 percent?
    Admiral Barrett. I think that occurred in 1998, sir.
    Mr. Mica. I am just saying in sheer volume, 7.2 metric tons 
is almost 20 percent of what you seized in 1 year; is that 
correct?
    Admiral Barrett. Seven tons is a very large shipment.
    Mr. Mica. And I heard our DEA representative, Mr. Ledwith, 
also testify--did you say that the Cuban authorities detected 
another container in Cuba with some drug residue and money or 
something like that? I didn't catch all of your testimony.
    Mr. Ledwith. Sir, you are correct. Subsequent examination, 
as told to us through the Colombian intermediaries--we are 
unable to deal directly with the Cubans--indicated that they 
subsequently examined containers in Cuba after the seizure was 
made in Cartagena, discovered false compartments with Spanish 
money and a total of approximately $107,000 United States 
equivalent, as well as some cocaine residue. That is correct, 
sir.
    Mr. Mica. And that container was different from the one 
that was seized in Cartagena?
    Mr. Ledwith. That is correct, sir.
    Mr. Mica. But not linked with the same firm or linked to 
the same firm?
    Mr. Ledwith. Linked to the same firm, but different from 
the container seized in Cartagena. That container remained in 
Cartagena.
    Mr. Mica. What is particularly disturbing about the 7.2 
metric tons, which is 7\1/2\ tons as we know it, is that it 
doesn't appear--first of all, like a one-time or experimental 
shipment. The quantity is huge when you consider the Admiral 
said in an entire fiscal year they have gotten 25 tons. That's 
25 percent of it, and you are telling me that the Cubans are 
saying there were other containers that may have held 
significant amounts of cocaine.
    Is that correct?
    Mr. Ledwith. Sir, what I am saying is there were other 
containers found and examined subsequently, according to Cuban 
officials, that had hidden compartments in them. And one, in 
fact----
    Mr. Mica. No cocaine, just traces?
    Mr. Ledwith. No, sir, no cocaine.
    Mr. Mica. Well, again, 20 percent and we double that, you 
are looking at some significant traffic.
    I don't know what you would consider major. The 
administration doesn't consider it major trafficking--whether 
it is going to Spain, and we are not able to tell what its 
final destination was.
    Mr. Ledwith, you also testified that this is an open, 
active case with DEA and, I think you testified, with the 
Spanish National Police; is that correct?
    Mr. Ledwith. That's correct, sir.
    Mr. Mica. Our staff, who were there recently, informed me--
and correct me if I am wrong, staff--but the Spanish National 
Police considered this case closed? We have had two staffers 
talking with them as recently as the last week, so that doesn't 
seem to jibe.
    The other thing that disturbs me is DEA says that there 
have been occasional--well, actually the Department of State 
says there is--Cuba does work occasionally with our law 
enforcement officials and yet DEA has testified that they lack 
any good consistent contact with DEA or specific information on 
this case or other trafficking. Are you saying that--Mr. 
Ledwith, that again you don't have the sources or resources 
there that are reliable in Cuba?
    Mr. Ledwith. Sir, our ability to work interactively with 
the Cuban authorities is exceptionally limited. What I was 
remarking on, is there have been historically some occasions 
where we have been able to make contact in an official 
capacity. Usually we would travel to Havana, and exchange 
documents at the airport.
    I am really referring to our ability to interact with them 
in the capacity in which we interact with other police agencies 
from other countries, or our ability to independently conduct 
investigations or at the very least corroborate facts and 
circumstances by our presence in that area. We do not have that 
ability in Cuba.
    Mr. Mica. Mrs. Mink.
    Mrs. Mink. Thank you very much.
    Secretary Beers, this authority given the President to 
examine the recommendations by State and DEA and others with 
respect to the dangers of drug trafficking to the United States 
was, by law, enacted in 1986. And I am curious, since I have 
not really had an opportunity to examine the history of this 
law with respect to what other administrations might have done 
with respect to Cuba; I only know from my staff's notes that 
Cuba has never been listed on the majors list.
    Mr. Beers. That's correct, ma'am.
    Mrs. Mink. If so, then I need to know, when was the first 
list published by the administration? Was it the year 
following?
    Mr. Beers. 1987, ma'am.
    Mrs. Mink. Now, since 1987 to the present time, do you have 
any historical records as to trafficking in and out of Cuba, 
headed for the United States, of any major drugs?
    Mr. Beers. There is one case which DEA could comment on 
that appears to be related to that which occurred--Bill, you 
can speak to that issue----
    Mrs. Mink. Was that 1989? You are speaking about the 1989 
incident, or is it earlier?
    Mr. Ledwith. Yes, ma'am, referring to an incident that 
occurred in 1987-1988, in particular.
    Mrs. Mink. Could you elaborate?
    Mr. Ledwith. This is particularly in reference to the 
videotape that was shown earlier. It is an investigation in 
which--is that not the case that you are referring to, ma'am?
    Mrs. Mink. I just wanted to know what the history has been 
in terms of the examination by either State Department or DEA 
or other agencies with respect to the drug trafficking from 
Cuba to the United States.
    Mr. Beers. Other than this case, which is the only one that 
I am personally aware of, the other area that has been looked 
at historically is drug flights over Cuba. If you go back 
historically and look at that, based on the information 
available to me, 1999 is a relatively low period in the overall 
trend. The peak years were 1991 and 1992 and are double--more 
than double even 1998 figures in terms of suspect overflights 
of Cuba by drug trafficking aircraft.
    It has been an issue, it has been a concern, but it has 
never been a basis for making a determination that Cuba was a 
drug transit country. That is what I was referring to when I 
was talking about the unique nature of this transit situation, 
which we all agree is happening and is in a period now when the 
numbers went up in late 1997 to a peak in 1998 and have gone 
back down in 1999 to date. But even that period was lower than 
the peak period that I have information about, which was 1992. 
It has not been used as a basis for making this determination, 
and it was not again this year.
    Mrs. Mink. The basis that any administration, the current 
one or previous administrations, has used in order to decide 
whether to place a country on the majors list is the amount of 
traffic to the United States; is that correct?
    Mr. Beers. Yes, ma'am, that's correct.
    Mrs. Mink. Is that determination based upon surveillance of 
boats and air traffic, or is it based upon actual interdiction 
of drugs after they have been landed and have begun to move 
within the United States; or is it both?
    Mr. Beers. It is based on a series of pieces of information 
that are brought to the State Department by the various sources 
of information which we have. DEA is one of the primary 
providers of information, but not the only. The Intelligence 
Community is also asked to provide information.
    We look at seizures. We look at trafficking patterns. We 
look at information that don't necessarily result in seizures 
but would indicate trafficking patterns. We try to do the best 
that we can with estimates in terms of flows, put that all 
together and come to a judgment as to whether or not this 
significantly affects the United States. So it is all of those 
things together.
    In the case of Cuba this year, the examination was 
exhaustive. It has been an issue and an important issue that 
members and individuals within the administration have been 
most interested in. This is probably the most exhaustive review 
of the Cuban data that has ever been done, to the best of my 
knowledge.
    Mrs. Mink. One final question, Admiral Barrett. In your 
last paragraph, you say, ``In summary there is little 
indication to suggest that cocaine traffickers use Cuba as a 
transshipment point for markets.''
    Is there any evidence at all with respect to other drug 
trafficking emanating from Cuba as a transmission point to 
markets in the United States? Or was your comment only limited 
to cocaine?
    Admiral Barrett. Ma'am, I don't have any other information. 
I was trying to specify that I am not aware over the last 
couple of years of any air drops of cocaine that have been made 
to the land mass of Cuba or aircraft that have landed in Cuba, 
from the statistics that I was showing.
    Mrs. Mink. What about marijuana?
    Admiral Barrett. The marijuana that we see is coming 
primarily from Jamaica up toward the Bahamas. They are using 
the territorial waters of Cuba in the Windward Pass to avoid 
law enforcement assets.
    Mrs. Mink. Now, just for the purposes of the record, 
exactly what is this Joint Interagency Task Force of which you 
are Director? Is that all of the military services, Coast Guard 
and everybody that you are speaking for today?
    Admiral Barrett. Yes, ma'am. I am basically General 
Wilhelm's, the Commander in Chief of Southern Command's, 
tactical commander for counterdrugs. So we basically have the 
ability in our organization to track air and maritime targets 
from the source zone in South America toward the United States.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. I would now like to recognize the 
gentlelady from Florida, Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Mr. Ledwith, I have some questions for you regarding a 
south Florida cocaine kingpin, Jorge Cabrera, who has worked 
with both the Medellin and Cali cartels for a period of over 15 
years. In one of the many newspaper accounts of Mr. Cabrera, it 
says that he was sentenced--that's from that newspaper blowup 
over there

    sentenced in U.S. District Court in Miami to 19 years in 
prison and fined $1.5 million after being convicted along with 
several accomplices in the transportation of 6,000 pounds of 
cocaine into the United States. He was arrested by undercover 
detectives who confiscated the drugs, $50,000 in cash, several 
boxes of illegal Cuban cigars, and photos of Cabrera with Cuban 
President, Fidel Castro.

    Mr. Cabrera has reportedly stated that he has given DEA and 
the U.S. Justice Department investigators evidence of Cuban 
Government compacts with the drug trade. I have a series of 
questions related to that and you may answer them as you wish.
    I wanted to ask, what has the DEA done to followup on this? 
He stated that the notorious Colombian Cali cartel drug kingpin 
Carlos Pescone was escorted aboard Mr. Cabrera's boat in Havana 
with no objection from the Cuban regime and was brought to the 
United States. Do you think that the Cuban interior ministry 
was aware of this, and was our State Department interested in 
this information?
    Mr. Cabrera's attorney, Stephen Bronis, in an October 7 
letter to Attorney General Janet Reno, has accused our 
government of subverting the investigation that focuses on Cuba 
and drug trafficking.
    I would like your comment on the background of this 
particular investigation. He states in his letter--and you may 
discuss the credibility of it--he says that Cabrera described 
in detail his trips to Colombia--and Mr. Pescone, related to 
that, to Colombia and Cuba--in the planning of freighter loads 
of cocaine using Cuba as the point of discharge. Related to 
this case of Mr. Cabrera, he had repeatedly talked about how 
the Cuban coast guard would look the other way.
    Are you familiar with this case and if you would care to 
comment on Cabrera's assertion about the Cuban involvement in 
drugs?
    Mr. Ledwith. Ma'am, I am not personally familiar with that 
investigation on a basis to be able to discuss it in great 
detail with you at this moment. I would be happy to respond in 
writing.
    Ms. Ros-Lehtinen. I would like that response in writing.
    Mr. Ledwith. I would be happy to do so, ma'am.
    I would say that we look at--and within DEA we are 
apolitical, and we look at every single indication that we 
possibly can. I can assure you that these allegations would be 
given serious consideration within DEA.
    Ms. Ros-Lehtinen. Mr. Beers, if you would comment on this 
case?
    Mr. Beers. I am not in a position to comment in detail, but 
we would also seek to get to the bottom or support the DEA or 
the law enforcement investigative body providing any kind of 
information suggesting the involvement of senior government 
officials or any government officials of any government 
anywhere in the world. We are interested in that also.
    Ms. Ros-Lehtinen. If I could ask Rear Admiral Barrett about 
the go-fast. In my opening statement, I had stated that there 
were various Miami television stations that had filmed the go-
fast boats of the drug traffickers entering into Cuban waters 
that would not allow us to go into those waters to escape 
intersection. What opinions do you have about this? Have you 
seen such footage, and do you think that is something that you 
would care to followup on and investigate?
    Admiral Barrett. Ma'am, we have had mixed response from the 
Cuban Border Guard. As Mr. Beers said earlier, the Coast Guard 
in Miami has a telex to the Cuban Border Guard.
    I do not have any direct links to the Cuban Border Guard. 
As an operational commander, the best way for us to track 
suspect targets and to have an endgame is to work op center to 
op center. I can't do that with Cuba. So basically, we pass the 
information to the Coast Guard in Miami and they pass it to the 
Cuban Border Guard via telex.
    We have had mixed results from the Cuban Border Guard. 
Along the northern border, we have seen very little response; 
along the southeast border, we have seen fairly good response. 
I think about 75 percent of the go-fast tracks that were 
identified to the Cuban Border Guard were responded to. They 
didn't seize them. Generally what would happen is, they would 
get underway and the go-fast would run back into international 
waters. We have never seen a response from the Cuban Government 
on the air tracks flying over Cuba.
    Ms. Ros-Lehtinen. Mr. Beers, I had a question related to 
your statement. You said, ``We have seen no evidence that the 
Cuban Government regularly tries to intercept drug smuggling 
flights and we are not encouraging them or supporting them to 
do so.''
    Our intention to establish this cooperative link with 
Castro, it would be for them to intercept drug smuggling 
flights?
    Mr. Beers. No, ma'am, to intercept the drops. It is to deal 
with the interdiction in the maritime arena. That would be the 
focus of our effort.
    Ms. Ros-Lehtinen. And the reason for that is because we 
believe that he is not part of the air drops? He does not have 
any knowledge in his government, in his regime----
    Mr. Beers. No, ma'am. We have very special circumstances 
that restrict the degree to which we are in a position to 
directly assist any government in the aerial intercept of 
aircraft. Cuba does not meet those specifications. Only two 
countries, Peru and Colombia, meet the requirements of the law 
that allow us to cooperate directly to interdict aircraft in 
the air.
    Ms. Ros-Lehtinen. Now, what kind of information would we be 
sharing with Castro related to any kind of smuggling operation 
around Cuba?
    Mr. Beers. The intention, as I have said before, would be 
to focus that information on maritime intercepts by the Cuban 
forces in conjunction with the Coast Guard, information that 
the Coast Guard Seventh District headquarters would provide to 
them. I am not in a position at this point in time to tell you 
specifically what kinds of information would actually be shared 
with them because those final decisions have not been made yet.
    Ms. Ros-Lehtinen. Are you aware of any international 
agreement that Castro has complied with that he has signed in 
his 41 years of ruling over Cuba?
    Mr. Beers. I am not a Cuba expert. I am not in a position 
to make that judgment.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Mica. I recognize Mr. Gilman at this time. He has 
another obligation.
    Mr. Gilman. Thank you, Mr. Chairman, and I will try to be 
brief.
    Mr. Beers, did INL recommend that Mexico be on the majors 
list?
    Mr. Beers. Sir, as a matter of fact, it is the 
administration--individuals who participate in the process are 
part of the administration as a whole. And I, sir, with all due 
respect, am not in a position to confirm what INL's position 
was, or was not, on any of the countries with respect to the 
majors list.
    Mr. Gilman. The newspaper, the Post, I believe, said on 
November 11 that ``The U.S. officials speaking in background 
said the State Department felt Cuba should be on the list, but 
the White House disagreed.''
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6464A.027
    
    [GRAPHIC] [TIFF OMITTED] T6464A.028
    
    [GRAPHIC] [TIFF OMITTED] T6464A.029
    
    [GRAPHIC] [TIFF OMITTED] T6464A.030
    
    Mr. Beers. Sir, I am not in a position to confirm or deny 
that statement. And I was not the U.S. official.
    Mr. Gilman. How do you resolve, Mr. Beers, the fact that 
Cuba was left off the majors list this year with General 
McCaffrey's statement that ``The intelligence and law 
enforcement communities reported that detected drug overflights 
of Cuba, although still not as numerous as in other parts of 
the Caribbean, increased by almost 50 percent last year?''
    Mr. Beers. Sir, General McCaffrey could only have been 
referring to 1998 information compared to 1997 information. But 
it was----
    Mr. Gilman. Mr. Beers, it was a major increase over the 
last year, was it not?
    Mr. Beers. The 1999 information, which we have now, does 
not represent an increase. They represent a decrease.
    Mr. Gilman. Over last year?
    Mr. Beers. Calendar year 1999 information, based on the 
information available to me, indicates that there were 14 
incidents, 9 of which were air, over this past calendar year.
    Mr. Gilman. So General McCaffrey is wrong; is that right?
    Mr. Beers. As I said, sir, I believe General McCaffrey's 
comparison was the data in 1998 to the data in 1997, not the 
data in 1999 to the data in 1998.
    Mr. Gilman. As far as you are concerned, there has been no 
increase in air traffic over Cuba in the last year?
    Mr. Beers. Not this year, sir, no.
    Mr. Gilman. Chief Ledwith, would you explain the DEA's 
position on a theory that this 7.2 metric ton cocaine shipment 
was headed for Spain when the Spanish officials tell us that it 
was destined for Cuba?
    Mr. Ledwith. As I mentioned earlier, sir, we have 
uncorroborated information at this point that would indicate 
that it was headed to Spain. As I mentioned in my original 
testimony----
    Mr. Gilman. Have you spoken or have your people spoken to 
the head of the Spanish police with regard to this?
    Mr. Ledwith. I know we have interaction from our office in 
Spain, with the Spanish police on several levels. I do not know 
if they have spoken to the head of the Spanish police. I can't 
say with certainty.
    Mr. Gilman. It's been long reported there is a draft U.S. 
drug trafficking indictment hanging over Raul Castro. Could you 
shed some light on this issue and where it stands?
    Mr. Ledwith. I would not be able to comment on that, sir. I 
really don't know.
    Mr. Gilman. Admiral Barrett, according to Drug Czar 
McCaffrey, as I stated before, the intelligence and law 
enforcement communities report that detected drug overflights 
in Cuba, although not as numerous as in other parts of the 
Caribbean, increased by almost 50 percent in the last year or 
two. Do you agree with that assessment?
    Admiral Barrett. No, sir. The statistics, as I showed in my 
tracking information, say there was a major increase between 
1997 and 1998, but in 1999 there has been a significant drop-
off.
    Mr. Gilman. Can you describe the volume of the drug 
trafficking that transits between northeast Cuba and Haiti? Do 
you think that the Cuban and Haitian Governments aggressively 
target the drug trafficking between those two countries?
    Admiral Barrett. Sir, the information that I have is that 
Haiti is a major problem area for transshipment. I have no 
information that there are any drugs going from Haiti to Cuba 
or from Cuba to Haiti. My information is that once it gets into 
Haiti, it comes up into the Bahamas or to the southeast United 
States.
    Mr. Gilman. Admiral, one other question. Can you explain 
the tactics, the strategy they are using of drug air drops into 
or near the Cuban waters? Just how prevalent is that method of 
delivery today?
    Admiral Barrett. Sir, that was a major problem in 1997 and 
1998. As I said earlier, there was a coordinated effort by our 
organization working with DEA and OBAT with their assets, the 
Coast Guard in the Seventh District out of Miami, and Customs 
in Florida to put additional assets in the area north of Cuban 
territories. Every time we had an air track headed toward Cuba, 
we would put air assets out to monitor what boats, particularly 
go-fasts, there were sitting either in international waters or 
in the territorial waters of Cuba waiting for the drop. We were 
successful with several seizures in that area, and I think that 
is one reason that we have seen a drop-off with the flights 
over Cuba.
    Mr. Gilman. Admiral, was there any substantial number of 
air drops in and around those waters?
    Admiral Barrett. Yes, sir. For 1997 and 1998, it was a 
total of 60 overflights of Cuba and drops either north of Cuba 
or the flights would continue up to the Bahamas.
    Mr. Gilman. Thank you. Mr. Chairman, I would like to 
request that the Washington Times article of November 11 with a 
headline of ``Havana Left Off U.S. Drug Majors List and White 
House Sees No Clear Evidence of Trafficking on the Island'' be 
made part of the record.
    Mr. Mica. Without objection, so ordered.
    Mr. Gilman. Thank you, Mr. Chairman, for allowing me to go 
out of order.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6464A.031
    
    Mr. Mica. The gentlelady from Illinois, Ms. Schakowsky, is 
recognized.
    Ms. Schakowsky. Thank you, Mr. Chairman. Rather dramatic, 
and I would say inflammatory accusations were leveled at the 
President by the chairman of this full committee, that 
President Clinton is now complicit with every ounce of cocaine 
which goes to Cuba and ends up on the streets of Chicago, 
Indianapolis, Baltimore, and New York.
    What I wanted to get at was what exactly is the difference, 
how the United States in terms of our drug enforcement 
investigations of tracking differs between a country of concern 
versus one of the majors?
    Mr. Ledwith. To DEA, it doesn't--there is no difference. 
Any country that is involved in drug trafficking that affects 
the United States, be it on the majors list or listed as a 
country of concern or not listed at all, would get the same 
degree of interest and scrutiny from DEA. We are not 
particularly interested in the majors versus the nonmajors. If 
they are shipping drugs to the United States, we are 
interested.
    Ms. Schakowsky. So essentially--correct me if I'm wrong--
the difference is in terms of the amount of aid that we might 
give to a country, which is irrelevant in this case because we 
don't give any aid, what are the differences that might--do you 
look at that activity less than you would?
    Again, let me try to pin that down if there is anything 
more specific.
    Mr. Ledwith. To DEA, it is not an issue. We are not overly 
concerned with majors list or the countries of concern or 
countries that are not listed. Our interest is specifically in 
any country that is facilitating drugs entering the United 
States. It may be of political interest or of interest to other 
agencies within the U.S. Government, certainly appropriately 
so, but to DEA it is not an issue.
    Ms. Schakowsky. Presented--I am not quite sure, so I could 
certainly be corrected--as some kind of incontrovertible 
evidence of drug trafficking was a video of an individual 
that--it sounded to me was a pilot involved in drug 
trafficking. Now, this was presented as absolute fact. I wonder 
what we know about that individual and why we should accept as 
absolute truth the words of someone that, I thought anyway, was 
someone involved in drug trafficking who might have a reason to 
give self-serving testimony.
    Mr. Ledwith. The person involved in that tape is a drug 
trafficker. He was significantly involved in drug trafficking 
in the United States, who made those claims. The person was 
provided with the opportunity to take a polygraph test; it was 
permitted to do so, and there was no deception indicated as a 
result of that test.
    We do not regard this as absolute proof of anything. A 
polygraph test is not admissible in court. However, it is one 
of many indicators that would cause us to examine that person's 
allegations more closely.
    Ms. Schakowsky. Are you saying that the statements he made 
on the tape were true?
    Mr. Ledwith. I am not a polygraph expert, but the results 
of the polygraph examination indicated that he believed that 
those statements were true.
    Ms. Schakowsky. How did you then followup with the 
information? How did the DEA then followup with that 
information?
    Mr. Ledwith. DEA conducted an investigation. These people 
were ultimately sentenced and went to prison in the United 
States. I am not prepared at this moment to discuss the 
intricate details of that particular allegation, I am not that 
familiar with it. I would be happy to respond to you, but I can 
assure you that we would have further attempted to investigate 
those claims.
    Ms. Schakowsky. The concern here today, of course, is 
really only the involvement with Cuba. That's the portion that 
I would be interested in. Is there any comment that you could 
make on that?
    Mr. Ledwith. I do not think there is any country in which 
drug traffickers with their interruptive potential and 
influence could not cause certain things to happen. I would 
never, as a matter of policy, rule out any allegation that a 
drug trafficker makes. We pay attention to all of them because 
in many cases they have proved to be accurate.
    Ms. Schakowsky. Let me ask one final question. There was 
also a concern that the United States failed to followup on Mr. 
Herrera the White House chose to take Castro's story without a 
shred of evidence, and then there was a Mr. Herrera that did 
testify to this investigating committee, but the DEA said they 
were unable to get in contact with Mr. Herrera but wanted to 
interview him and polygraph him. Why is it that he seemed to be 
fairly readily--I am sure there was a lot of investigative 
work--readily available to the staff of the committee and not 
available to the DEA?
    Mr. Ledwith. It would not be accurate to represent that we 
could not find this gentleman, No. 1. We were able to find this 
gentleman if we chose to, and we knew where this person was. It 
is accurate to say that we did not interview this person and it 
is accurate to say that we did not provide this person with the 
polygraph examination. There are certain investigative 
strategies in a criminal investigation and this investigation 
remains open and ongoing in parallel areas. I can only discuss 
at this point that we were unable to do that at that time.
    Ms. Schakowsky. Thank you.
    Mr. Mica. Thank you.
    I would now like to recognize Chairman Burton.
    Mr. Burton. It is pretty significant that a country that is 
involved in drug trafficking is not put on the majors list, and 
since there was a witness in Spain that had evidence that would 
bear directly on a possible decision of this type made by the 
President of the United States, why in the world wouldn't you 
have gotten to him right away? We did.
    Mr. Ledwith. Sir, I am unable to comment appropriately in 
this forum, but there are reasons.
    Mr. Burton. I would be very happy if you would come to my 
office and tell me why. We are cleared for Top Secret. I had 
Mr. Toms in my office, and we went into this in great detail, a 
lot of this stuff. And for you guys to come up here and say, 
well, there is some reason why you haven't talked to this 
fellow over in Spain when we sent our investigators over there 
and we did talk to him, and he said he would take a polygraph 
and come back here and testify, and you guys didn't go talk to 
him. And the President then says there is not enough evidence 
to put Cuba on the majors list when there is a person there who 
can testify very clearly about it, who supposedly was involved 
and swears he wasn't. This doesn't make sense. Why didn't you 
do it? I don't understand why you didn't go over there quickly 
and find out.
    Mr. Ledwith. Sir, this is part a continuing criminal 
investigation. It is not concluded, and we will eventually be 
able to do that.
    Mr. Burton. Let me just say one more thing. You say they 
found Spanish money in containers that had drug residue?
    Mr. Ledwith. No. I think there were separate occasions.
    Mr. Burton. Where was that found?
    Mr. Ledwith. In Cuba, yes.
    Mr. Burton. Who was it found by in Cuba?
    Mr. Ledwith. The Cuban authorities.
    Mr. Burton. The Cuban authorities? Oh, my gosh, Fidel 
Castro's people went and found Spanish money when they said 
previously there were no drugs whatsoever. Then all of a sudden 
they come back when the heat is turned up, and you open up a 
canister and, lo and behold, the Cuban people tell the world 
there is Spanish money in there and there is drug residue. So 
obviously you did not know it was going to Spain.
    You don't think that might be a plant by Castro? I mean, 
come on.
    Let me go into other things here. Mr. Cabrera in a letter 
that was written in 1996 to the Attorney General of the United 
States says, ``In his debriefings, Mr. Cabrera was careful not 
to embellish the facts.'' I want to read this to you.

    He described in detail his trips to Colombia and Cuba and 
the planning of freighter loads of cocaine using Cuba as a 
point of discharge. Mr. Cabrera informed the investigators that 
on each of the cocaine importations the freighter would meet 
his organization's vessel at a predetermined global plotting 
system coordinate within 4 miles of the Cuban coast.
    He described how the Cuban Government welcomed the presence 
of Carlos Pescone and other Colombian drug cartel leaders to 
Cuba on a regular basis. When Mr. Cabrera would arrive in 
Havana, he was embraced by Cuban officials and he has described 
his meetings with them, including his association with Manuel 
Pinero LoSada, a/k/a Barbaroka, Alfredo Guevara, and Fidel 
Castro. During his meetings with Castro, he even made reference 
to Cabrera's and Castro's mutual friends from the Cali drug 
cartel.

    It's not a major drug shipping transit point for drugs. 
They were sending shiploads in there and he was meeting with 
Fidel Castro.
    Let me just talk to you about something else. ``Gonzalo 
Bassols Suarez''--he is one of the Cuban officials--``remains 
in Cuba's diplomatic service. Despite his 1992 U.S. indictment 
on drug smuggling charges, he is in the government. As minister 
counselor of Cuba's embassy in Bogota, he aided an arms-for-
drugs smuggling ring involving the Colombian M-19 guerrillas 
and Cuban officials.'' He is still in power down there.
    ``Nelson Blanco, general of the revolutionary armies, 
implicated in the 1993 draft U.S. Federal indictment that named 
Cuban Minister of Defense and First Vice President Raul Castro 
and other senior Cuban officials in cocaine smuggling.'' He is 
still in power down there. He is still making decisions. 
Obviously, he has cleaned up his act. He is a nice guy; he is 
not involved in drug trafficking anymore.
    Raul Castro, Fidel Castro's brother, indicted or should be 
indicted in Miami. He is still there.
    ``Alberto Colome Ibarra, Minister of the Interior and corps 
general of the revolutionary armed forces, named in a draft 
U.S. Federal racketeering indictment in 1993 for conspiring 
with our Cuban officials to ship cocaine from Colombia through 
Cuba to the United States.''
    I have a four-page list of these people. For this 
government and this President who appointed you, I think, to 
say that this is not a major transshipping point for drugs is 
just unbelievable. I can't believe that the agencies of our 
government would come here and tell us that that's not the 
case, and tell us there are cases pending and that's why you 
haven't talked to this guy in Spain who was willing to swear 
under oath and take a lie detector test that he was not 
involved; and that Castro's government--two of the people in 
Castro's government from the minister of the interior, their 
equivalent of the CIA, were in charge and they looked at every 
single thing that came into that company.
    And they even called him and said, hey, where is that 
shipload of stuff supposed to be coming in from Colombia. 
Fifty-one percent of the company was owned by the Castro 
government. They controlled it. They had the minister of the 
interior running it; they knew about the 7.2 tons of cocaine 
coming in.
    So what do they do? They get caught red-handed. They deny 
it completely, deny that there was anything that ever came into 
Cuba. And then they tell you that the Cuban police found a 
secret compartment that showed a little drugs in there and some 
Spanish currency which is floating all over Havana. And, oh, my 
gosh, you deduct that it's going to Spain.
    I tell you, you know, when you come and testify before our 
committee and you tell us this stuff, it just drives me up the 
wall. The reason that I believe this is happening, is because 
the President of the United States wants to normalize relations 
with Castro. He is working with as many business people as he 
can possibly find, sending them down there to try to open the 
door to Fidel's dictatorship, and he didn't want this on the 
majors list because it would be a blowup and might cause a 
little problem as far as the normalization process.
    When we passed the Helms-Burton law, the President was 
fighting for normalization with Cuba. Until Castro shot down 
those planes, he was going to get it done. But because of the 
political hell fire that came into being because of those 
people being shot down and killed, he ended up signing the 
Helms-Burton law; and he didn't want to do it, but he did it 
for political reasons. Now he doesn't want this thing to 
explode in his face, so the 7.2 tons of cocaine obviously was 
going to Spain.
    How in the hell do you know that? You don't have any idea 
that's the case. As a matter of fact, there are all kinds of 
companies that Castro and his government have dealt with in 
Mexico that could be the conduit for that. That ought to be 
what you are checking into, instead of saying it all went to 
Spain. And at the same time
you are not even talking to the people who are involved in the 
company over there, who was willing to take a lie detector 
test, but you say it is still under investigation.
    I yield back the balance of my time. This isn't the end of 
this.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6464A.032
    
    [GRAPHIC] [TIFF OMITTED] T6464A.033
    
    [GRAPHIC] [TIFF OMITTED] T6464A.034
    
    [GRAPHIC] [TIFF OMITTED] T6464A.035
    
    [GRAPHIC] [TIFF OMITTED] T6464A.036
    
    [GRAPHIC] [TIFF OMITTED] T6464A.037
    
    [GRAPHIC] [TIFF OMITTED] T6464A.038
    
    [GRAPHIC] [TIFF OMITTED] T6464A.039
    
    [GRAPHIC] [TIFF OMITTED] T6464A.040
    
    [GRAPHIC] [TIFF OMITTED] T6464A.041
    
    [GRAPHIC] [TIFF OMITTED] T6464A.042
    
    [GRAPHIC] [TIFF OMITTED] T6464A.043
    
    [GRAPHIC] [TIFF OMITTED] T6464A.044
    
    [GRAPHIC] [TIFF OMITTED] T6464A.045
    
    [GRAPHIC] [TIFF OMITTED] T6464A.046
    
    [GRAPHIC] [TIFF OMITTED] T6464A.047
    
    [GRAPHIC] [TIFF OMITTED] T6464A.048
    
    Mr. Mica. Mr. Cummings, you are up. The chairman has 
yielded back the balance of his time. I would recognize you at 
this time.
    Mr. Cummings. I want to thank you very much, Mr. Chairman.
    As I have been listening to all of this, Mr. Ledwith, as a 
criminal lawyer for about 17 years, I had an opportunity to 
meet a lot of DEA agents. They were some of the finest human 
beings that I have ever met, putting their lives on the line 
every day, every day trying to make life better for people all 
over the country.
    I was just wondering, when you say that you have got an 
ongoing investigation and there are certain strategies that you 
use, I take it that is something very important to you. I guess 
the end result is that you catch the criminals and that there 
are certain things that you just can't talk about in open--a 
place like this.
    Mr. Ledwith. That's correct, sir.
    Mr. Cummings. But just as significant, there are certain 
people that you don't want to talk to at a certain point 
because it may cause the very things that you are trying to 
accomplish to be defeated.
    Mr. Ledwith. That's correct, sir.
    Mr. Cummings. But you said something that really--I guess 
just has been hanging on my mind, and that is that it really 
doesn't make any difference to you whether they are on the 
majors list or not. Why is that?
    Mr. Ledwith. Well, sir, I have spent the last 31 years of 
my life enforcing the laws of the United States. I don't do it 
by political affiliation nor does the Drug Enforcement Agency. 
It doesn't make a bit of difference to me if the drugs were 
going to Spain or the United States in that sense, in a 
political sense. It makes a difference to me that we were able 
to successfully conclude an investigation.
    We do not align ourselves politically. We do not target 
people politically. And I would be both personally and 
professionally insulted if I was asked to do an investigation 
based on any kind of political perceptions. I would not do it. 
I would resign first.
    Mr. Cummings. Admiral, let me ask you something. You were 
the one that showed the maps, right, the charts?
    Admiral Barrett. Yes, sir; the air tracks and the maritime 
tracks, yes, sir.
    Mr. Cummings. One of the tracks had a lot of different 
colors, the lines. I don't know which one it was, but what did 
that mean? Did your man disappear?
    Admiral Barrett. Let me go up and see if I can----
    Mr. Cummings. What did those lines--when the different 
colors--I wanted to ask the question at that time, but it just 
was inappropriate. The one on----
    Admiral Barrett. Back one.
    Mr. Cummings. We have got the expert back.
    Admiral Barrett. Sir, there are different periods of time, 
just so you can see. It will show some of the contrast. They 
also would be--some are known tracks and others are possible 
tracks. As part of our data base, if we have only one piece of 
intelligence that an aircraft is going to leave and go to a 
destination and we have no corroborating evidence, then that is 
a possible track. We collect that. We handle that a little 
differently, but we use that as part of the historical track 
information.
    Mr. Cummings. Maybe Mr. Ledwith can help me with this, too. 
When we find out that, say--you also said noncommercial flights 
are going by. Exactly what does that help you with, and what do 
you do about it? Are you following what I am saying?
    Is there something that Cuba could have been doing to help 
us? I know about radar and all of that kind of thing, but I am 
just trying to figure out what could they be doing to help us 
address this problem? Listening to you all, I am not sure 
whether they are really involved in the drug trafficking 
themselves, but I am just wondering if there are things that 
they could be doing to assist you more than what they may be 
doing now.
    Admiral Barrett. Yes, sir. When I say ``a noncommercial air 
track,'' it is basically a light aircraft that is generally 
equipped with extra fuel tanks to be able to make a trip from 
the north shore of--the north coast of Colombia, the La Guajira 
Peninsula, to overfly Cuba and drop their drugs and turn around 
and return to South America. And basically what we do, every 
time we get one of those tracks on our radar, we pass the 
information to the Coast Guard in the Seventh District and they 
alert the Cuban authorities.
    So what I think we could do is if Cuba would respond, and 
as Mr. Beers said, they do not have a shoot-down policy, and we 
cannot give them specific radar information, but we can tell 
them a track is on the way, which we do regularly. And 
basically, if they responded, I think it would be a deterrent 
against the traffickers to not overfly Cuba.
    Mr. Cummings. Is there something other than shooting down 
that would be an appropriate response?
    Admiral Barrett. Well, we basically have a lot of problems 
right now with the air tracks that return to South America 
overflying Venezuela. Venezuela does not have a shoot-down 
policy. They do not allow us to overfly their sovereign air 
space now, but they do frequently respond with fighter jets 
that try to force the traffickers to land so they could make an 
arrest.
    Mr. Cummings. One other question. I guess just the mere 
fact that if you had a shoot-down policy, that in and of itself 
would be a deterrent, you would hope?
    Admiral Barrett. Yes, sir, very definitely. When we had 
successes on the air bridge between Peru and Colombia, where 
coca base was being delivered to the processing labs in 
southern Colombia, the Peruvian Air Force shot down 
approximately 3 percent of the flights and it stopped the air 
traffic.
    Mr. Cummings. Have we had any of those kinds of 
discussions, any at all, Mr. Beers?
    Mr. Beers. With the Cubans, no, sir. The law says that the 
United States and U.S. Government officials are not permitted 
to in any way assist or abet that kind of activity except in 
certain exceptional circumstances which require that the 
country in question have a national security emergency and that 
the United States and the country in question discuss the 
procedures which are undertaken before the country actually 
begins to fire on the plane; that is, to determine whether or 
not it is a drug trafficking aircraft, whether or not it is 
prepared to land after being spoken to on the radio, after 
being signaled to, cockpit-to-cockpit, with normal 
international procedures, and only at that point and only with 
the decision of a higher-level official not in the cockpit.
    Those are the kinds of procedures that we have asked, or 
are required to ask, of countries before we could knowingly 
transfer data to them that would aid them in any way in 
shooting down those aircraft.
    Mr. Cummings. Thank you.
    Mr. Mica. Thank you. I would like to recognize now the 
gentleman from California, Mr. Ose.
    Mr. Ose. Mr. Beers, if I may, I'm a little bit confused. 
What was the number of overflights of Cuba in the period from 
January 1, 1997 to September 30, 1997?
    Mr. Beers. The number that I have is approximately 20 plus. 
And I believe Admiral Barrett has a more accurate figure than I 
have in his presentation.
    Admiral Barrett. The bar chart, it's the first chart. Sir, 
I think the differences, these are calendar year figures. And I 
think Mr. Beers was talking fiscal year, but basically those 
are the figures from the interagency data base.
    Mr. Ose. Here's the question I have: In the material we 
have it appears that for the period January 1, 1999 to 
September 30, 1999, according to Mr. Beers' testimony, there 
were nine such overflights.
    Mr. Beers. Yes, sir.
    Mr. Ose. In the period from January 1, 1998 to September 
30, 1998, there were 27 such overflights. What I'm trying to 
get to is the period from January 1, 1997 to September 30, 
1997, the number of overflights. And what I'm confused about is 
that, Admiral, I heard you mention the number 60 as being the 
overflights both to Cuba and to the Bahamas.
    Admiral Barrett. Yes, sir. I was adding 1997 and 1998 from 
my chart. When Chairman Gilman asked me were there a lot of 
flights prior to 1999, I combined those years. And that's where 
I got the 60 figures.
    Mr. Ose. The 1997 number is 21, the 1998 number is 39, and 
you have 10, Mr. Beers has 9.
    Mr. Beers. His goes to a later date this year than mine. 
And I'm prepared to stipulate that his numbers are the best 
numbers we have, sir.
    Mr. Ose. All right. What I'm trying to do is reconcile 
General McCaffrey's observation that the overflights have 
increased by 50 percent with the representation that the 
overflights have reduced by 50 percent.
    Mr. Beers. Sir, the only explanation I can come up with is 
that the data speaks for itself and he meant to compare 1998 
and 1997 and not 1999 and 1998, because we don't have anything 
that would come out anywhere close to that 50 percent figure 
increase in calendar year 1999.
    Mr. Ose. I have a letter here dated May 27, 1999 from 
General McCaffrey to Chairman Burton. I want to quote, ``the 
intelligence and law enforcement communities report that 
detected drug overflights of Cuba, although still not as 
numerous as in other parts of the Caribbean, increased by 
almost 50 percent last year.'' So that would have been 1998.
    Mr. Beers. Yes, sir.
    Mr. Ose. So that would have been a comparison presumably 
from 1997 for the period through September 30.
    Admiral Barrett. Yes, sir, that's correct.
    Mr. Ose. That would essentially establish the general 
accuracy of these numbers, if I do some quick math.
    Admiral Barrett. Yes, sir. But, again, my figures are for 
calendar year. So when Mr. Beers was talking up through the end 
of the fiscal year, I've added 3 more months into mine. Mine 
are calendar year figures.
    Mr. Ose. I was unclear on that, I appreciate that. And we 
had a major effort, as I said, with the domestic law 
enforcement agencies, DEA, Coast Guard and Customs, to get 
successful endgames against those air drops north of Cuba, and 
that happened late last year, early this year. And we think 
that's one of the reasons for the dropoff.
    Mr. Ledwith, your comments about the end source for the 7.2 
metric tons; you keep using the word ``uncorroborated'' 
information on which the DEA bases its opinions. And I'm trying 
to make sure I understand what uncorroborated means. And the 
reason I ask that is I read the deposition of Mr. Herrera, and 
I'm just trying to understand why do you use the word 
``uncorroborated?''
    Mr. Ledwith. Sir, in general we would use that word to 
indicate that we were not able to factually verify the 
information ourselves, that it is third-party reporting or it 
is reporting of Cuban origin. And we do not place the ultimate 
test of faith in any reporting that we have not done ourselves 
or have been able to factually corroborate ourselves. I would 
refer to it as uncorroborated at that point.
    Mr. Ose. So if I understand correctly, you're surmising 
that the end destination of the container was Spain, but you're 
giving us a heads up that that information comes from Cuban 
sources?
    Mr. Ledwith. Partly from Cuban sources, partly from the 
Colombian National Police. The Colombian National Police, and I 
have the greatest faith in their reporting, seized documents at 
the time of the container seizure in Cartagena, that would also 
be part of the documents that we referred to. Some of the other 
information that we became aware of is as a result of Colombian 
National Police interaction with the Cuban police, because we 
do not have the capability to interact directly with them.
    Mr. Ose. Is the information you're getting from the 
Colombian police coming from the Colombians or from the Cubans? 
In other words, are the Colombians serving as a conduit or is 
it generated from their own sources?
    Mr. Ledwith. It is my understanding, sir, that there's two 
different levels of information involved here; one is that 
which was seized by the Colombian National Police in Cartagena, 
Colombia at the time of the seizure. Those would be the 
documents indicating that this container was to be shipped on 
the vessel Capitan Ortegal to Jamaica with further routing to 
Cuba.
    Mr. Ose. Mr. Chairman, I see the red light is on. I can't 
believe my 5 minutes are up, but before I yield back, I want to 
enter into the record two articles, one dated June 28, 1999 
from the Miami Herald and the other dated November 1, 1999 from 
the Washington Times, highlighting our efforts to track this 
down.
    Then I can't help but have two questions which I appreciate 
any input on, and that is if--according to the tracking 
information that you've got on these flights, they have largely 
been redirected toward Haiti and that the dilemma I have is it 
is my understanding we're engaged in a bunch of nation building 
down in Haiti. And I can't understand why it is that drug 
traffickers are flying to a country that we have a military 
presence in and we can't do a damn thing about it.
    The second item is if, in fact, this container was headed 
to Spain, as the uncorroborated evidence indicates, according 
to the definition on the certification process, that might 
bring into jeopardy whether or not Spain in fact should be 
identified as a number on the majors list.
    So I just--I don't have time to explore those, but I 
appreciate the chairman's time.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6464A.049
    
    [GRAPHIC] [TIFF OMITTED] T6464A.050
    
    Mr. Mica. I thank the gentleman. Without objection the two 
articles he referred to will be made a part of the record.
    And I will now recognize the vice chairman of our 
subcommittee, the gentleman from Georgia, Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    I too must express some degree of surprise, and 
mystification over why Cuba has never been on the majors list. 
Mr. Beers, I know you're very familiar with the language in the 
statute, I'm going to read it here for purposes of just laying 
the basis for my mystification, ``the term major drug transit 
country means a country, A, that is a significant direct source 
of illicit narcotic or psychotropic drugs or other controlled 
substances significantly affecting the United States; or, B, 
through which are transported such drugs or substances.''
    It seems as if you're saying, reading in between the lines 
of your earlier discussion with, I forget which one of the 
other members of our committee it was, regarding General 
McCaffrey's statement that, and Mr. Ose from California just 
referred to this, that there had been a 50 percent increase in 
transshipment flights or flights over Cuba.
    You seem to indicate that may not be that significant this 
year, because the way you read the statistics that would mean 
that it's, according to this they've dropped off, and 
therefore, that would be a reason not to have Cuba on the list. 
Would that not be a strong reason to have included Cuba in 
previous years, if now that provides the basis for not 
including them this year?
    Mr. Beers. Sir, what I was trying to say was that we have 
chosen as looking at the information.
    Mr. Barr. Who is we?
    Mr. Beers. This is the U.S. Government position.
    Mr. Barr. The State Department position.
    Mr. Beers. The U.S. Government, sir.
    Mr. Barr. I want the State Department----
    Mr. Beers. Sir, I'm not in a position to speak about what 
individual or individual agency views were in a decision made 
by the President of the United States.
    Mr. Barr. Does the State Department not have a view on 
whether or not Cuba should be included on the majors list?
    Mr. Beers. Sir, the Secretary of State's view that she 
communicates to the President on this is her view.
    Mr. Barr. Does the State Department have a view? The State 
Department being that agency of our U.S. Government funded by 
taxpayer money? I'm trying to help you here. I'm not being 
antagonistic to you. I think you agree, even though you're not 
saying so. Does not the State Department have a position on 
whether or not a country should be included or not included on 
the majors list? I'm not asking you to say what it is.
    Mr. Beers. Yes, sir.
    Mr. Barr. They do have a position.
    Mr. Beers. Yes, sir. That is true. The Secretary of State 
is required to provide that recommendation to the President.
    Mr. Barr. I'm very happy to know the State Department has a 
position.
    Mr. Beers. Yes, sir.
    Mr. Barr. Is it the position of the State Department that a 
country that has a significant number of flights allowed 
through or over its territory or in its territorial waters of 
drugs transshipped either to or affecting the United States 
should be included on the list?
    Mr. Beers. The administration's position, sir, with respect 
to the----
    Mr. Barr. The State Department position. I'm not asking for 
a specific country, for heaven's sake. There has to be some 
criteria that the State Department uses in rendering its 
decision that you already told me it uses to make 
recommendations to the President.
    Is part of the criteria that the State Department uses as a 
general matter of fact that there is evidence that there is a 
significant number of flights over or transshipments through 
the territorial waters or the territory of a country of mind 
altering drugs that are destined to or affect the United 
States?
    Mr. Beers. That is one of the things that we look at, yes, 
sir, as do other agencies.
    Mr. Barr. OK. Looking then at this chart, one could perhaps 
make an argument, we might not agree with it, one might make an 
argument that in 1998 Cuba would be included, and then the fact 
that there has been significant dropoff to 1999 might provide 
at least a colorable argument that one could make, without a 
major grin, that it should not be included in the current year. 
But wouldn't it seem, if you took off of this chart the name of 
the country, that there probably would be a reasonable basis 
for including a country with that significant a number of 
flights, suspected flights, given its proximity to the United 
States, given its proximity to a number of other countries that 
are included in the list, that probably would make that country 
eligible for inclusion in the list?
    Mr. Beers. Sir, you can make that argument. The 
administration has chosen not to. We know the administration--
--
    Mr. Barr. The President.
    Mr. Beers. No administration----
    Mr. Barr. The President has chosen, has made that decision.
    Mr. Beers. The President, yes, sir. And no President has 
chosen to make that argument. The statistics which I have go 
back to 1991. The largest years were 1991 and 1992 and the 
administration that preceded this administration, and as I 
said, no administration has chosen to make this the sole 
criteria for putting a country, Cuba, on the majors list. This 
is a unique case.
    Mr. Barr. I think it is a unique case, and that's what 
bothers us, that there seems to be very good reason to have it 
on the list, yet it is not. The President has again chosen to 
include some countries that, unlike Cuba, mount very, very 
strenuous efforts to assist us and take very strong measures 
against drug trafficking, and yet they're included on the list, 
and yet we have Cuba that does not make those efforts that is 
not included.
    It seems to us unique and that's why we're probing, because 
we think that there is a reason, simply politics or----
    Mr. Beers. Why would that have prevailed since the 
beginning of this log-in, sir?
    Mr. Barr. That is a mystification. But what we're focusing 
on is recent years. I mean we're not here to talk--at least I'm 
not here to talk about what Lyndon Johnson might have done or 
George Bush or somebody else. That's not really the concern of 
this Congress. It may be to some Members on the other side, and 
it may be to you, I don't know, but our concern, those of us 
who are here today and who have spoken on this, are concerned 
with what seems to be very significant evidence that raises a 
very high likelihood that Cuba ought to be and satisfies the 
criteria, even more so than some of the other countries on the 
list, for inclusion.
    Does the 7\1/2\ tons of cocaine destined for Cuba concern 
you?
    Mr. Beers. The 7\1/2\ tons of cocaine destined for anywhere 
would concern me. That is a very significant shipment. We all 
would agree with that.
    Mr. Barr. And I know there's been some discussion here 
already today about whether or not the evidence indicates that 
it was destined for Spain or the United States. It's my 
understanding that there has been no firm conclusion on that, 
is that true? Is that accurate?
    Mr. Beers. Yes, sir, that is an accurate view. The 
preponderance of information continues to suggest that it was 
going toward Spain, but that is information, not evidence, and 
there is no firm conclusion.
    Mr. Barr. So the administration has not ruled out that it 
was destined for the United States? You've not been able to 
rule that out?
    Mr. Beers. No, sir, but the other piece of information 
that's lacking here is we do not have other information about 
other shipments that went through the territory of Cuba that 
were destined for the United States this past year, or the year 
before that or the year before that or the year before that.
    Mr. Barr. I think Mr. Burton's concern was that perhaps 
some of these leads are not being followed up, I think. I can't 
speak for him, but I think his concern is that there may be 
some effort to exclude certain possibilities that you might 
find out if too many questions perhaps were asked, and I know 
the other witnesses have expressed an unwillingness to go into 
that here in an open hearing. But I do hope that we can have 
some meetings that will shed some more light on that.
    Mr. Beers. Sir, we're trying to do everything we can, but 
as you also know, the State Department is not a law 
enforcement, investigative agency.
    Mr. Barr. Looking back also at the 7\1/2\ tons of cocaine, 
such as the one in December 1998, is it--the language that 
we're talking about earlier in the statute, and I know the 
President's letter in May, true to form, uses some very 
specific words. He says ``we have yet to receive any 
confirmation that this traffic carries significant quantities 
of cocaine or heroin to the United States,'' which is not 
precisely the language of the definition of a major country. It 
is not a criteria to include a country on the majors list that 
the drugs be specifically targeted to the United States, is 
that not correct?
    Mr. Beers. Sir, it is correct that the language of the law 
does not say that. We are going by legal opinion that was 
developed within our legal community within the government that 
has caused us to use the United States as the final destination 
as the determining element.
    Mr. Barr. Let's say hypothetically we have a country and we 
can establish that two shipments come through that country of 
equal amounts and say, just hypothetically, 7\1/2\ tons each, 
and both of those are at the point of embarkation from the 
source country destined for the United States, but somebody 
makes a decision somewhere in the trafficking line that instead 
of sending all 15 tons to the United States, they're only going 
to send 7\1/2\ and they're going to send 7\1/2\ to one of our 
allied countries in Europe, which is a major concern to DEA. 
Would the fact that that 7\1/2\ did not actually wind up being 
targeted directly to the United States lessen the concern that 
you might have over that shipment?
    Mr. Beers. Sir, the fact that 7\1/2\ metric tons were 
coming to the United States out of the two shipments of 7\1/2\ 
each would be a significant concern to the United States and we 
would look very seriously at that.
    Mr. Barr. You're not saying that you look at these numbers, 
these shipments, these drug transactions in a vacuum; is it not 
a concern when we have major shipments going to those of our 
allied countries as well? I mean that does happen.
    Mr. Beers. I'm sorry, sir, I thought you were talking about 
in the context of the majors list. No, sir, we, like DEA, would 
agree that drug trafficking anywhere in the world is a serious 
problem and a serious problem that directly or indirectly 
affects the United States and all the citizens of the world. 
And the State Department's effort to deal with trafficking is 
not limited to the focus on drugs that come to the United 
States. We have programs with countries that don't necessarily 
make major contributions to drug flows to the United States.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman. I have a couple of 
followup questions, first of all for Admiral Barrett. You 
obtain your surveillance information from various agencies, you 
said Coast Guard, Navy, various----
    Admiral Barrett. No, sir.
    Mr. Mica. Where do you obtain that from?
    Admiral Barrett. We receive our track information from a 
system of radars that feed into my organization in Key West. We 
do----
    Mr. Mica. Do you use any of the information obtained by 
Coast Guard and other aircraft and other flights?
    Admiral Barrett. Yes, sir. But normally speaking, those 
aircraft are working for me. We are----
    Mr. Mica. So this information on flights is strictly radar 
based, currently and historically?
    Admiral Barrett. It will be initially radar based and then 
we actually launch aircraft to identify the suspect aircraft.
    Mr. Mica. Well, who launches the aircraft?
    Admiral Barrett. I do, sir.
    Mr. Mica. What aircraft?
    Admiral Barrett. Navy aircraft, Coast Guard aircraft.
    Mr. Mica. Well, I'm a little bit curious as to the number 
of flights, because May 1st, we stopped all of the flights out 
of Howard Air Force Base; is that correct?
    Admiral Barrett. That's correct, sir.
    Mr. Mica. And our staff was down there for some months 
after and there was a big gap in those--the capability of 
launching any aircraft from anywhere to go after drug 
traffickers; isn't that correct?
    Admiral Barrett. Sir, we have moved our assets to forward 
operating locations.
    Mr. Mica. But, sir, there was indeed a gap from May 1--we 
had staff down there, I sent them down immediately, we had no 
capability out of Manta, almost no flights for some time, and 
limited out of Aruba. And then I was told in fact--is this not 
the case--that out of Aruba that we were getting bumped for 
commercial traffic, our flights?
    Admiral Barrett. I'm not aware of that, sir.
    Mr. Mica. That's what I was told. But weren't there--from 
May 1st there was a dramatic decrease in the number of flights 
that took off for a number of months; is that correct?
    Admiral Barrett. No, sir, that's not correct.
    Mr. Mica. Well, we're getting different information.
    Admiral Barrett. Sir, there was an extensive number and 
different type of aircraft that worked out of Howard. We did 
not have as many aircraft in Aruba and in Curacao. But I have 
assets also working out of Guantanamo Bay.
    Mr. Mica. For several months there were none coming out of 
Manta----
    Admiral Barrett. Yes, sir, but Manta only covers the 
Eastern Pacific. It had no influence on the Central----
    Mr. Mica. And there was a greatly diminished number from 
this information that we got from May, June, and July out of 
Aruba than had previously come out of Howard; is that correct?
    Admiral Barrett. That is correct, sir.
    Mr. Mica. OK. Well, whether we had more flights or not, 
your other testimony provided to the subcommittee today is that 
there is an increase in go-fast; is that correct?
    Admiral Barrett. That is correct.
    Mr. Mica. A dramatic increase. Not only go-fast, and if I 
were a drug trafficker, it wouldn't take me much time to figure 
out that there may be pressure from the air and surveillance, 
even if it's limited, but to move this stuff by another means. 
And you also testified today, this is almost 20 percent in one 
shipment, that's correct, of what you seized in 1999, 20 
percent of the total?
    Admiral Barrett. Sir, I need to clarify a point. When I 
indicated that JITF East, my organization, had been directly 
involved in the seizure of over 45 metric tons, there are other 
agencies that also seized drugs in the transit zone that we may 
not have been directly involved in. So the historical----
    Mr. Mica. But it's a significant amount, and then----
    Admiral Barrett. Yes, sir, very definitely.
    Mr. Mica. And then Mr. Ledwith testified that the Cubans 
told him that they found containers with residue in it, that's 
right, Mr. Ledwith?
    Mr. Ledwith. Correct.
    Mr. Mica. I don't want to get into money, because now I'm 
finding out that's in another one. So it appears that there's 
significant increase in Cuban involvement in drug trafficking. 
What concerns me is Mr. Beers has testified today that this is 
the most exhaustive review ever conducted, yet Mr. Ledwith 
tells us that in fact the investigation isn't complete. We 
cannot confirm or deny if the United States was the final 
source.
    We met with the CIA today in closed door session, they 
don't have a clue. They do not have a clue. I've read more in 
the newspaper close to the comic section than they could tell 
me in a closed door briefing of what's going on. If it's an 
exhaustive review, I would be very concerned.
    Mr. Beers. Of availability information, sir, excuse me.
    Mr. Mica. Of available information. And they can tell you 
they don't have much available. Then I'm told by our staff that 
the Spanish police, national police has closed the 
investigation and Mr. Ledwith testifies that there's an ongoing 
investigation of--the Spanish National Police are part of it. 
Quite frankly I am concerned.
    I did not become convinced before today that there was this 
involvement with the Cuba at this level. It has raised many 
more questions. I'm concerned about the volume. This is an 
incredible amount of narcotics. And I'm told now that there's 
even more and we don't know much about what's going on. And it 
does concern me.
    So I have taken a new turn as far as my knowledge and I 
have to say I was very skeptical before the hearing. But now 
I'm even more concerned.
    Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. I know that we 
have just a few minutes remaining on the clock. Mr. Ledwith, we 
know that there will be confirmation hearings before the DEA 
Administrator probably coming up in early next year. And I know 
we have at least one more--from what you hear from this 
subcommittee many of us have a lot of questions related to 
whether our agencies have done everything that we should and 
must do regarding this investigation of the over 7 metric tons 
headed from Colombia to Cuba.
    And we definitely would like to encourage the Administrator 
to wrap up the investigation as quickly as possible and any 
loose threads should be closed up and all of those questions 
should be asked and people should be properly investigated and 
followup. And we hope that those confirmation hearings, of 
course, go well for the Administrator, and many of us will be 
checking with Senator Helms and Senator Hatch to make sure that 
our agencies are doing everything to wrap up that investigation 
and do a thorough job, and I know that DEA will do its job.
    Mr. Ledwith. Yes, ma'am. Investigations have a pace of 
their own and at times there are integral parts of an 
investigation that we have to work with, where we have to wait 
for certain things to happen. I mean in any investigation and 
it is impossible to establish timeframes for investigations in 
progress. But we will do everything in our power to complete 
this as soon as possible.
    I would not wish to hold it to any kind of timetable with 
which we could not comply and bring the idea before the 
committee that we were uncooperative or unwilling. It is merely 
a case that these things have a life of their own occasionally 
and we need to work within those parameters.
    Ms. Ros-Lehtinen. Let's hope there's more followup on this 
case than there was in the Cabrera case.
    Mr. Mica. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. Captain, could you flip 
to the air tracks, please. I want to first look at this one. I 
presume this reflects the 21 and 39 flights that were tracked 
for 1997 and 1998.
    Mr. Beers. Yes, sir.
    Mr. Ose. And if you can see--I mean you have some bisecting 
virtually the center of Cuba, you have some over on the island 
of Hispaniola, some headed out to the east and some headed into 
central Mexico. Captain, would you go to the next page, now, 
please. Here we have the tracking for calendar year 1999 
through November 15th, and what we see is a substantial 
reorientation of the tracks, if I'm reading the map correctly, 
a substantial reorientation of the tracks to Haiti, which is on 
the western end of Hispaniola.
    Mr. Beers. That's correct, sir.
    Mr. Ose. Now the question arises in my mind if this 
tracking pattern contributes to the empirical evidence on which 
Haiti would be put on to the majors list--captain, flip back to 
the previous page--why is it that a similar tracking pattern 
over Cuba doesn't?
    Mr. Beers. Sir, that's not the only information on which 
Haiti and the Dominican Republic were looked at with respect to 
this decision. There are also go-fast boats which have landed 
cargo in Haiti and the Dominican Republic which comes on to the 
United States. And we have--if you will look at that, you will 
notice that those planes are landing in Haiti, they're not 
necessarily going on from Haiti. And so what we have used to 
look at that is all available information and based on all 
available information, which is that there are a variety of 
ways in which drugs come into and go out of Haiti, that's the 
basis for putting Haiti on the list, sir.
    Mr. Ose. So if I understand correctly, a country in which 
we have a military presence engaged in nation building to 
reinstall the democratically elected government has under this 
scenario fewer tracks and yet then say Cuba and yet--captain, 
flip to the next page--here on the western end of Hispaniola, 
which is Haiti as opposed to the eastern end, which is the 
Dominican Republic, which I see, I think there's one track in 
the very southwestern corner.
    I mean there's some inconsistency here in my opinion as to 
the empirical evidence you're using, whether it be go-fast 
boats, overflight patterns or what have you, to in one case 
have Haiti on the list, because of the overflight patterns of 
the go-fast boats, and then have the Dominican Republic on the 
list where the empirical evidence doesn't have any overflight 
pattern for instance.
    Mr. Beers. Sir, we don't use the overflight patterns as a 
sole criteria to put people on the list. That's what I've been 
trying to say.
    Mr. Ose. I'm in agreement with you. I'm saying up here that 
the overflight pattern is empirical evidence that something is 
going on, and it ought to be raised in priority in terms of how 
you put a country on or off the majors list. There is a direct 
connection as we can hear from the testimony in terms of the 
dumping of cargo in international waters for pickup by go-fast 
boats between planes flying over a country and the subsequent 
delivery of material into the water.
    I'm just amazed at the difference in the empirical evidence 
between Haiti on the west end and the Dominican Republic on the 
east end as it relates to overflight patterns only and the 
empirical evidence as it related to Cuba in previous years.
    Mr. Beers. Sir, the trafficking patterns that have caused 
both Haiti and the Dominican Republic to essentially be put on 
the majors list for the past several years is that the flow 
comes into the territory of both of those countries and goes 
out of the territory of both of those countries we believe to 
the United States. It is the land nexus that is the basis for 
the decision. If those countries were like Cuba, if those 
countries had only overflight in maritime transit around but 
did not touch, then we would be in a position which would be 
similar to Cuba. Neither of them are.
    Mr. Ose. Mr. Chairman, we need to go, so I yield back.
    Mr. Mica. Unfortunately, we do have a vote, with a little 
bit of time left. Without objection, the record will be left 
open for 3 weeks. We will be submitting additional questions to 
the witnesses. Being no further business to come before this 
subcommittee, this meeting is adjourned.
    [Whereupon, at 1:10 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T6464A.051

[GRAPHIC] [TIFF OMITTED] T6464A.052

[GRAPHIC] [TIFF OMITTED] T6464A.053

[GRAPHIC] [TIFF OMITTED] T6464A.054

[GRAPHIC] [TIFF OMITTED] T6464A.055

[GRAPHIC] [TIFF OMITTED] T6464A.056

[GRAPHIC] [TIFF OMITTED] T6464A.057

[GRAPHIC] [TIFF OMITTED] T6464A.058

[GRAPHIC] [TIFF OMITTED] T6464A.059

[GRAPHIC] [TIFF OMITTED] T6464A.060

[GRAPHIC] [TIFF OMITTED] T6464A.061

[GRAPHIC] [TIFF OMITTED] T6464A.062

[GRAPHIC] [TIFF OMITTED] T6464A.063

[GRAPHIC] [TIFF OMITTED] T6464A.064

[GRAPHIC] [TIFF OMITTED] T6464A.065

[GRAPHIC] [TIFF OMITTED] T6464A.066

[GRAPHIC] [TIFF OMITTED] T6464A.067

[GRAPHIC] [TIFF OMITTED] T6464A.068

[GRAPHIC] [TIFF OMITTED] T6464A.069

[GRAPHIC] [TIFF OMITTED] T6464A.070

[GRAPHIC] [TIFF OMITTED] T6464A.071

[GRAPHIC] [TIFF OMITTED] T6464A.072

[GRAPHIC] [TIFF OMITTED] T6464A.073

[GRAPHIC] [TIFF OMITTED] T6464A.074

[GRAPHIC] [TIFF OMITTED] T6464A.075

[GRAPHIC] [TIFF OMITTED] T6464A.076

[GRAPHIC] [TIFF OMITTED] T6464A.077

[GRAPHIC] [TIFF OMITTED] T6464A.078

[GRAPHIC] [TIFF OMITTED] T6464A.079

[GRAPHIC] [TIFF OMITTED] T6464A.080

[GRAPHIC] [TIFF OMITTED] T6464A.081

[GRAPHIC] [TIFF OMITTED] T6464A.082

[GRAPHIC] [TIFF OMITTED] T6464A.083

[GRAPHIC] [TIFF OMITTED] T6464A.084

[GRAPHIC] [TIFF OMITTED] T6464A.085

[GRAPHIC] [TIFF OMITTED] T6464A.086

[GRAPHIC] [TIFF OMITTED] T6464A.087

[GRAPHIC] [TIFF OMITTED] T6464A.088

                                   - 

</pre></body></html>
